SENTINEL AUDIT V: STATUS OF
  THE FEDERAL BUREAU OF
   INVESTIGATION’S CASE
    MANAGEMENT SYSTEM
        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 10-03
              November 2009




        Redacted – For Public Release
                 SENTINEL AUDIT V: STATUS OF
            THE FEDERAL BUREAU OF INVESTIGATION’S
                   CASE MANAGEMENT SYSTEM

                                EXECUTIVE SUMMARY

       In March 2006, the Federal Bureau of Investigation (FBI) announced
that it had awarded a contract to Lockheed Martin Services, Incorporated,
(Lockheed Martin) to develop Sentinel, its new information and case
management system. The cost of Lockheed Martin’s contract, broken down
into four phases, was $305 million, and the FBI estimated that it would cost
an additional $120 million to staff and administer the FBI’s Sentinel Program
Management Office (PMO), which placed the total estimated cost of Sentinel
at $425 million. The initial schedule for the Lockheed Martin contract called
for the project to be completed in December 2009.

       The Sentinel program will integrate commercial off-the-shelf (COTS)
components and is intended to provide the FBI with an electronic
information and case management system that includes records
management, workflow management, evidence management, search and
reporting capabilities, and information sharing with other law enforcement
agencies and the intelligence community. According to the FBI, “Sentinel
will strengthen the FBI’s capabilities by replacing its primarily paper-based
reporting system with an electronic system designed for information sharing.
Sentinel will support our current priorities, including our number one
priority: preventing terrorist attacks.” 1

In June 2007, the FBI announced that it had fully deployed Phase 1 of
Sentinel, providing FBI employees with user-friendly, web-based access to
information currently in the FBI’s Automated Case Support system (ACS), as
well as improved search capabilities. Phase 1 of Sentinel also featured a
personal workbox, which summarizes a user’s cases and leads, and a squad
workbox, which helps supervisors manage resources. 2




       1
        FBI Press Release entitled FBI Announces Award of Sentinel Contract,
March 16, 2006.
       2
          A lead is a request from an FBI field office or a headquarters division for assistance
in an investigation.



                                             -i-
OIG Audit Approach

       The Department of Justice Office of the Inspector General (OIG) is
performing audits of the Sentinel project at the request of the FBI Director
and congressional appropriations and oversight committees. This audit is
the fifth in a series of audits that the OIG has conducted to evaluate the
FBI’s progress in developing and implementing Sentinel.

       In our fourth audit, we reported that the FBI resolved most of the
concerns we had identified in our first three Sentinel audits. However, in our
fourth audit we identified the following areas that we believed warranted
continued monitoring: (1) identification of the data that will be stored in
Sentinel, (2) the data collection process, (3) identification of the paper forms
that will be replaced with electronic forms, and (4) identification of the
statistics that will be stored in Sentinel and how those statistics will be
collected.

       The objectives of this current audit, the fifth in our ongoing review of
Sentinel’s progress, were to: (1) evaluate the FBI’s implementation of
Phase 2 of the Sentinel project, including the project’s cost, schedule, and
performance; and (2) assess the FBI’s progress in resolving concerns
identified in the OIG’s previous Sentinel audits. Future OIG audits will
continue to examine the progress of Sentinel over its remaining phases and
assess whether Sentinel’s cost, schedule, performance, and technical
benchmarks are being met.

      We conducted our audit work at FBI headquarters in Washington, D.C.,
and at the FBI Sentinel PMO in McLean, Virginia. To perform our audit, we
interviewed officials from the FBI, the Sentinel PMO, and the Department of
Justice (Department). We reviewed documents related to the Sentinel
contract; cost and budget documentation; and Sentinel plans, processes,
and guidelines. Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.

OIG Results in Brief

      In this audit, we identified several areas of concern with the overall
progress of Sentinel and the implementation of Phase 2. Since the issuance
of our last report in December 2008, the FBI’s estimate of Sentinel’s overall
cost has not changed and remains at $451 million. 3 However, we found that

       3
          U.S. Department of Justice Office of the Inspector General, Sentinel Audit IV:
Status of the Federal Bureau of Investigation’s Case Management System, Audit Report
09-05 (December 2008).



                                           - ii -
the portions of Sentinel’s Phase 2, delivered as of July 1, 2009, did not
provide significant additional functionality to users as initially planned. The
FBI and Lockheed Martin encountered significant challenges deploying new
electronic versions of forms used by FBI agents during investigations that
functioned as intended and met user requirements. As a result, the FBI
adopted a new approach to developing forms and has replanned the
remainder of Phase 2.

       Originally, the FBI estimated that the development of Phase 2 of
Sentinel would be completed in July 2009 at a cost of $137 million. As of
August 2009, the FBI and Lockheed Martin agreed to revise the project’s
schedule, increase Lockheed Martin’s cost to develop Phase 2 to $155
million, and update the remaining costs for Phases 3 and 4. The revised
schedule extends the estimated completion date for Phase 2 to October
2009, 3 months later than previously reported. 4 Consequently, the overall
project completion date has been extended to September 2010, 3 months
later than we previously reported and 9 months later than originally planned.
In addition, the FBI plans to reallocate costs from other project areas,
including the management risk reserve, to offset the $18 million increase in
Phase 2 development costs. Also, as a result of the replanning of the
remainder of Phase 2, some of the deliverables originally scheduled for
Phase 2 have been deferred to later phases of the project. While the FBI
and Lockheed Martin agreed to the final schedule and remaining costs for
Phases 3 and 4, the FBI’s Acquisition Review Board has decided not to fully
fund Sentinel’s Phase 3 until Phase 2 is complete. 5

      In addition to delays in developing new parts of Sentinel, FBI
employees have expressed concerns about the current operation of Sentinel.
Specifically, users frequently complained about the system’s slow response
to requests for information. However, we found that while the concerns
have been expressed in relation to Sentinel, the slow response times are
primarily caused by the FBI’s aging network architecture, which was last
upgraded in 2002. In March 2009 the FBI began an upgrade of its computer
network that is estimated to cost $39 million and that is planned to be


       4
         While the FBI expects to accept delivery of Phase 2 in October 2009, it does not
expect to deploy Sentinel’s Phase 2 capabilities to all users until December 2009.
       5
         The cost and schedule revision agreement between the FBI and Lockheed Martin
occurred after we completed our fieldwork. We will review the planning and implementation
of Phases 3 and 4 in future audits.

       The purpose of the Acquisition Review Board is to ensure that the FBI has a sound
plan for approaching its major procurement actions. The Acquisition Review Board must
approve acquisition plans for purchases with an estimated cost of $5 million or more.


                                           - iii -
completed by December 2009. According to the FBI, the network upgrade
should improve Sentinel’s response time.

       Finally, due to the aggressive schedule, scope, and importance of
Sentinel’s implementation, the project requires a highly skilled and
integrated project management staff. We have concerns with the staffing of
the project because of a recent increase in turnover among project staff
members, vacancies within the Sentinel PMO, and because the Sentinel PMO
Staffing Plan does not reflect the current staffing levels or skills needed for
the project.

      In this report, we make six recommendations to better manage project
costs and assist the FBI in ensuring the success of the Sentinel case
management system. These recommendations include filling vacancies at
the Sentinel PMO, increasing user involvement in the development of
Sentinel, and developing a goal for Sentinel’s response time to user inputs.

      Our report also contains detailed information on the results of our
review of Sentinel’s development and implementation. The remaining
sections of this Executive Summary describe in more detail our audit
findings.

Overall Project Status

      The second of Sentinel’s four phases is currently under development.
While the FBI has not revised the overall cost estimate for Sentinel since we
issued the Sentinel IV report in December 2008, the revised schedule
extends the estimated completion date for Phase 2 by 3 months, and the
project’s overall completion date by 3 months.

Project Cost

      At the inception of the project, the FBI estimated Sentinel’s total cost
would be $425 million, including $305 million for Lockheed Martin to develop
and maintain Sentinel and $120 million for the FBI’s Sentinel PMO
operations, independent verification and validation (IV&V), and a
management risk reserve to fund unforeseen changes in the project’s scope.
After Phase 1 was deployed, the FBI and Lockheed Martin replanned the
remaining phases of Sentinel and the FBI’s estimate of Sentinel’s total cost
increased to $451 million. As of May 2009, Sentinel had incurred
approximately $290.4 million or 64.4 percent of its projected $451 million
cost. As of August 2009, FBI officials stated that the $451 million estimate
was still accurate, but the allocation of planned expenses had changed with



                                     - iv -
the planned value of Lockheed Martin’s contract expected to increase by
$6.3 million.

Project Schedule

      At the time the FBI awarded Lockheed Martin the contract to develop
Sentinel, Lockheed Martin planned to complete Phase 4 by December 2009.
However, after the completion of Phase 1 of Sentinel in June 2007, the FBI
directed Lockheed Martin to redevelop a plan for the project that would
address the technical and managerial challenges encountered during
development of Phase 1. This replanning moved the completion of Phase 4
to May 2010, 5 months later than originally planned. 6 In June 2009,
Lockheed Martin worked with the FBI to develop an engineering change
proposal that included detailed schedule estimates for Phases 3 and 4.
Based on these detailed estimates, the FBI extended the completion date of
Phase 4 again, to September 2010, 3 months later than we previously
reported, and 9 months later than originally planned in June 2006.

Requirements and Capabilities

      During the replanning efforts, the FBI reallocated Sentinel’s planned
requirements among its four phases. In most cases, the Sentinel PMO and
Lockheed Martin have moved the completion, or full satisfaction, of
requirements to earlier phases than originally planned. FBI officials stated
that this type of reallocation reduces the FBI’s risk because moving
requirements to earlier phases provides an early warning of potential
problems with the design or performance of Sentinel.

       In addition to the reallocation of Sentinel’s requirements, other
requirements have been added to the project. In September 2008, the
Department of Justice issued new Attorney General Guidelines on Domestic
FBI Operations (AG Guidelines) that included policy on assessing complaints
received by the FBI concerning reported criminal activity. For example,
requirements necessary to implement the new complaint assessment
process mandated by the AG Guidelines were not included in the original
Sentinel System Requirements Specifications, so the new AG Guidelines
effectively added requirements to Sentinel and expanded the scope of the
project. Lockheed Martin estimated that the new requirements would cost
about $3.1 million to implement. However, the FBI rejected Lockheed
Martin’s proposal because, according to the Sentinel PMO, Lockheed Martin’s

       6
          Based on documentation the FBI provided us, our December 2008 report on
Sentinel’s progress states that the replanning moved the completion of Phase 4 to June
2010. In October 2009, the FBI provided us with documentation showing that the
replanning had moved the completion of Phase 4 to May 2010.


                                           -v-
proposal included items that were not needed. As of August 2009, the FBI
has not determined the cost of updating the requirements to ensure that
Sentinel complies with the revised AG Guidelines. As a result, the Sentinel
PMO plans to ask Lockheed Martin for an estimate on a more precisely
defined scope of work.

Phase 2 Status

        Phase 2 of Sentinel, which is currently under development, consists of
four segments, the first three of which have been completed. When the FBI
initiated development of Phase 2, it expected the second phase of Sentinel
to provide: (1) a portal to Sentinel, with additional enhancements made
during the phase; (2) eight electronic forms, as well as an automated
workflow, to support the flow of electronic documents through the review
and approval process; (3) migration of FBI administrative case records; and
(4) an automated workflow process for managing future administrative case
files. 7 In addition, Phase 2 was expected to enhance Sentinel’s
infrastructure.

       The expected cost, schedule, and scope of Phase 2 have increased
since our last audit. The FBI expects that Phase 2 will be delivered on
October 16, 2009, 3 months later than scheduled and cost $155 million to
develop, $18 million more than budgeted at the beginning of the phase. We
identified three major factors that contributed to the schedule delay and cost
increase. First, during Segments 2 and 3 Lockheed Martin and the Sentinel
PMO encountered problems developing Sentinel’s electronic forms and their
supporting automated workflows. Second, the successful development of
Sentinel is dependent on successful development and deployment of another
FBI IT system called the Enterprise Directory Services (EDS). 8 When the FBI
deployed the system in January 2009, EDS did not perform as intended and
did not deliver the planned security requirements for Phase 2. Third, the FBI
reallocated requirements from Phases 3 and 4 to Phase 2, Segment 4.

     The FBI accepted delivery of Phase 2, Segment 3 of Sentinel in April
2009. This segment delivered: (1) interfaces to six FBI IT systems;

       7
          The Sentinel Enterprise Portal will allow users to access multiple FBI IT systems
with a single sign-on. The portal will also provide a central location for links to other FBI
applications.
       8
          EDS is part of a portfolio of security services entitled the Identity Access
Management (IAM) initiative that the FBI plans to implement. IAM will identify users within
a system and control their access to information within that system through an established
identity that will grant a user access to specific resources based on specific policies and the
permission level assigned to the user.



                                             - vi -
(2) enhanced system administration; (3) portions of Sentinel’s records
management capability; (4) a user-friendly method of sending and receiving
tasks; and (5) the ability to extract administrative case data from ACS.
However, while Lockheed Martin completed work on eight electronic forms
and their corresponding workflows, the FBI did not deploy the forms and
workflows because EDS, on which Sentinel relies, did not function as
intended.

       When the FBI could not deploy Sentinel’s eight electronic forms and
their corresponding automated workflows during Segment 3, it revised
Segment 4 to include the deployment of the forms. However, developing
electronic forms and automated workflows that met user expectations
continued to be a challenge during Segment 4. On June 17, 2009, after
spending $810,000 to develop Sentinel forms using a software package
intended specifically for that purpose, the Sentinel PMO requested approval
from the Department’s Chief Information Officer to rebaseline Segment 4
and incorporate a new approach to develop electronic forms and their
associated automated workflows. 9 The Segment 4 completion date, which
had already been extended to October 16, 2009, did not change under this
new plan, and the segment is still expected to include all of the significant
case management capabilities and data migration originally planned.
However, five of the eight electronic forms and their supporting workflows,
which had originally been scheduled for Phase 2, have been deferred to later
phases of the project while the other three are planned for deployment in
Phase 2, Segment 4.

      In addition to the changes in the cost, schedule, and scope of Phase 2,
we are concerned that the lack of progress the FBI has made in planning for
the migration of administrative case data from ACS to Sentinel will delay the
completion of Phase 2, Segment 4 and potentially increase Sentinel’s overall
cost.

Phase 2 User Acceptance and System Performance

      When Sentinel is fully implemented, the FBI will change from an
organization that relies on paper-based processes and case files to one
that uses automated workflows and electronic case files. To aid in this
transformation, the Sentinel PMO has solicited feedback from FBI
employees on Sentinel’s current operations. The most frequent

       9
          Rebaselining, an earned value management term, revises a project’s planned
baselines and eliminates cost and schedule variances. Rebaselining usually occurs when a
project’s progress deviates significantly from the original plan and the remaining time and
funds are not sufficient to complete the project.



                                           - vii -
complaint about Sentinel obtained through this feedback is that
Sentinel responds too slowly to user requests.

      We found that the FBI’s outdated network architecture that provides
the infrastructure to transmit Sentinel data is the most significant
contributor to Sentinel’s slow response times. While not included as part of
the Sentinel project costs, the FBI is currently spending $39 million to
improve and simplify its network. This upgrade is vital to Sentinel’s
performance and could affect whether users rely on Sentinel and its
automated workflows to perform their daily tasks once it is fully
implemented.

      In addition, the Sentinel Measurement Plan requires Lockheed Martin
to submit its evaluation of Sentinel metrics, which provide a means for
measuring the program’s development, in a monthly Measurement and
Defect Report. We found several instances where Lockheed Martin did not
provide the reports, or the reports included outdated information. Without
accurate data, the FBI cannot adequately monitor Sentinel’s performance or
assess Lockheed Martin’s progress toward meeting the FBI’s requirements
for the completed version of Sentinel.

Actions Taken on Previous OIG Recommendations

      The FBI has taken steps to resolve the concerns we identified during
our previous audits regarding the FBI’s management of Sentinel. Based on
the FBI’s actions, we have closed 30 of the 31 recommendations we made in
our previous four Sentinel reports. The FBI agrees with the remaining
recommendation but has not yet implemented all the steps to address the
recommendation.

Conclusion and Recommendations

       We expressed concern in previous audits about the aggressiveness of
Sentinel’s schedule. The revised schedule for Phases 3 and 4, which projects
that Phase 4 will be completed on September 20, 2010, was developed after
our field work for this audit was completed so we did not have an
opportunity to analyze the rationale for the revision. However, based on our
understanding of the project, we believe that the revised schedule is more
realistic and that extending the completion of Phase 4 by 3 months increases
the likelihood that Sentinel will meet users’ needs when it is completed.

      We found that the FBI’s development of Phase 2 will cost more and
take longer than estimated at the beginning of the phase. As of June 2009,
the FBI estimated Phase 2 would be completed on October 16, 2009,


                                   - viii -
3 months later than scheduled, and cost $18 million more than initially
budgeted. These increases in time and expense occurred because Lockheed
Martin and the FBI encountered problems developing new electronic forms
and automated workflows that met both users’ needs and functioned as
intended. The failure to meet users’ needs was due, in part, to limited user
involvement during the development phase. While it is too early for us to
determine whether the Sentinel PMO’s new approach to developing forms
will be successful, we believe that the Sentinel PMO’s use of an incremental
approach has helped reduce the cost of problems encountered by the FBI
and allowed it to change approaches more quickly and its new forms
development approach appears promising. Regardless of the approach
eventually adopted to develop the forms, user involvement is vital to the
successful development of these new forms.

      Additionally, Sentinel’s Phase 2 development was dependent on EDS
being able to meet its access control requirements. Because EDS failed
when the FBI deployed it in January 2009, Sentinel was unable to meet
some of its Phase 2 access control requirements and continues to rely on
ACS to perform security functions such as user identification. Until EDS can
perform the necessary access control functions, Sentinel will be relying on
ACS, the antiquated system it is designed to replace.

      To help guide the development of the final phases of Sentinel, the
Sentinel PMO solicited feedback on Sentinel’s current functionality. The
most frequent complaint about Sentinel was that it responded too slowly to
user requests, an outcome attributable to the FBI’s outdated network
architecture. To support Sentinel and other FBI IT systems, the FBI is
currently investing approximately $39 million to upgrade its network
architecture. We believe this network upgrade is vital to the effective use of
Sentinel.

       In this report we make six recommendations that, if implemented, will
assist the FBI in better managing project costs and ensuring the success of
the Sentinel case management system. These recommendations include
fully staffing the Sentinel PMO, increasing user involvement in Sentinel’s
development, and developing a goal for Sentinel response times to user
inputs.




                                    - ix -
                                LIMITED OFFICIAL USE


                                TABLE OF CONTENTS

INTRODUCTION .......................................................................        1
     Sentinel     .......................................................................   5
     Sentinel’s Phased Approach ..................................................          6
     Earned Value Management System ........................................                6
     Prior Reports ......................................................................   7

FINDINGS AND RECOMMENDATIONS ............................................. 8
     Finding 1: Overall Project Status .......................................... 8
          Sentinel Costs .............................................................. 8
          Sentinel Schedule ........................................................ 10
          Requirements and Capabilities ....................................... 11
          Annual EVM Surveillance Review .................................... 12
          Sentinel PMO Staffing ................................................... 13
          Conclusion .................................................................. 16
          Recommendations........................................................ 16

       Finding 2: Phase 2 Status................................................... 17
            Phase 2 Overview ........................................................ 18
            Phase 2 Status ............................................................ 18
            Segment 2 .................................................................. 19
            Segment 3 .................................................................. 22
            Segment 4 .................................................................. 25
            Conclusion .................................................................. 27
            Recommendations........................................................ 28

       Finding 3: Phase 2 User Acceptance and System Performance 29
            Phase 2 User Acceptance .............................................. 29
            Operations and Maintenance Activities ............................ 32
            Phase 2 System Performance Metrics ............................. 33
            Conclusion .................................................................. 34
            Recommendations........................................................ 35

       Finding 4: Actions Taken on Previous OIG Recommendations.. 36
            Conclusion .................................................................. 37

STATEMENT ON INTERNAL CONTROLS .......................................... 38

STATEMENT ON COMPLIANCE WITH LAWS
     AND REGULATIONS ............................................................ 39

APPENDIX I:         OBJECTIVES, SCOPE, AND METHODOLOGY .............. 40
APPENDIX II:     ACRONYMS .......................................................... 41

APPENDIX III: SENTINEL ELECTRONIC FORM DETAIL ..................... 42

APPENDIX IV: CLOSED RECOMMENDATIONS FROM PRIOR
             OIG REPORTS ...................................................... 45

APPENDIX V:      SENTINEL PROGRAM MANAGEMENT OFFICE
                 STAFF POSITIONS AND RESPONSIBILITIES ............. 48

APPENDIX VI: FEDERAL BUREAU OF INVESTIGATION’S
             RESPONSE TO THE DRAFT REPORT ........................ 54

APPENDIX VII: OFFICE OF THE INSPECTOR GENERAL
              ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
              TO CLOSE THE REPORT ......................................... 58
                                    INTRODUCTION

      On March 16, 2006, the Federal Bureau of Investigation (FBI)
announced that it had awarded a contract to Lockheed Martin Services,
Incorporated (Lockheed Martin) to develop the Sentinel information and
investigative case management system. The cost of the four phases of the
Lockheed Martin contract totaled $305 million, and the FBI estimated that it
would cost an additional $120 million to staff the FBI’s Sentinel Program
Management Office (PMO), provide contractor support, and establish a
management reserve for contingencies, bringing the total estimated cost of
the Sentinel project to $425 million. The initial schedule for the Lockheed
Martin contract called for all phases to be completed in December 2009, or
45 months from the start of work.

      The Sentinel project, which is based on commercial off-the-shelf
(COTS) components, is intended to provide the FBI with a web-enabled
electronic case management system that includes records management,
workflow management, evidence management, search and reporting
capabilities, and information sharing capabilities with other law enforcement
agencies and the intelligence community. 10

       On June 19, 2007, the FBI announced that it had fully deployed
Phase 1 of Sentinel. The goal of this first phase of the project was to provide
FBI employees with user-friendly, web-based access to information currently
in the FBI’s antiquated Automated Case Support system (ACS). 11 Phase 1
featured a personal workbox that summarizes a user’s cases and leads. 12 It
also provided user-friendly search capabilities and a squad workbox, which
allows supervisors to better manage their resources and assign leads with
the click of a mouse.

      Sentinel’s Phase 2 development and implementation is in process. It
is expected to provide: (1) a portal to Sentinel, with additional
enhancements during the phase; (2) eight electronic forms and an
automated workflow to support the flow of electronic documents through the

       10
          Workflow is the automation of a business process, in whole or part, during which
documents, information, or tasks are passed from one participant (human or machine) to
another for action, according to a set of procedural rules.

       11
        ACS is the FBI’s current case management system. Deployed in 1995, ACS is a
mainframe system.
       12
           A lead is a request from any FBI field office or headquarters for assistance in the
investigation of a case.


                                             -1-
review and approval process; (3) migration of FBI administrative case
records from ACS; and (4) an automated workflow process for managing
future administrative case files. 13 In addition, Phase 2 is expected to
enhance Sentinel’s infrastructure, which will result in new capabilities unseen
by the user, such as the ability to backup and recover data.

       In Phases 3 and 4 of Sentinel, the FBI plans to migrate existing
investigative case data from ACS to Sentinel. Also, these phases will add
interfaces between Sentinel and other FBI systems and implement additional
access controls. Finally, Sentinel will provide a workflow for all types of
cases while adding additional forms, such as the Terrorist Threat or
Suspicious Activity Report, to the library of electronic forms available to
users.

      Given the importance of the Sentinel project, the FBI Director and
congressional appropriations and oversight committees asked the
Department of Justice Office of the Inspector General (OIG) to review and
report on the progress of the FBI’s development of Sentinel. This is the fifth
OIG report on Sentinel. The first four Sentinel reports focused on the
planning and development of Phases 1 and 2, the FBI’s processes and
controls for managing Sentinel, and the contract with Lockheed Martin to
develop Sentinel. This report examines the changes made to Sentinel’s
planning and development since the implementation of an incremental
development approach at the conclusion of Phase 1, completion of the first
of the four segments of Phase 2, and the progress made by the FBI in
resolving concerns identified in our previous audits. 14

       Over the past few years, the OIG and others have reviewed various
aspects of the FBI’s information technology (IT) infrastructure and noted the
critical need for the FBI to modernize its case management system. In
previous reports, the OIG concluded that current FBI systems do not permit
agents, analysts, and managers to readily access and share case-related
information throughout the FBI, and without this capability the FBI cannot
perform its critical missions as efficiently and effectively as it should. 15

       13
          The Sentinel Enterprise Portal will allow users to access multiple FBI IT systems
with a single sign-on. The portal will also provide a central location for links to other FBI
applications.
       14
           Under the incremental development approach, each phase of a project is broken
down into segments, and the segments are further broken down into increments. The goal
of this approach is to provide more frequent deliveries to the user during the development
of the project.
       15
          For a more complete discussion of the OIG’s reports on Sentinel, see the Prior
Reports section on page 7.


                                             -2-
      The FBI’s attempt to move from a paper-based to an electronic case
management system began in mid-2001 with the Trilogy project, which
consisted of three components: (1) hardware and software;
(2) communications network; and (3) the Virtual Case File, which was
supposed to replace the FBI’s five most important investigative applications,
including ACS. 16 In late 2004, after about 3 years of development, the FBI
commissioned the Aerospace Corporation to perform a study evaluating the
functionality of COTS and government off-the-shelf technology to meet the
FBI’s case management needs. The Aerospace Corporation followed this
study with an independent verification and validation (IV&V) report on the
Virtual Case File in January 2005, which recommended that the FBI pursue a
COTS-based, service-oriented architecture. 17

       In February 2005, the OIG issued a report on the Trilogy project
questioning the FBI’s ability to complete and deploy the Virtual Case File. 18
At the end of April 2005, the FBI reported that it had terminated work on the
Virtual Case File due to the lack of progress on its development. The FBI
said that the “marketplace” had changed significantly since the Virtual Case
File development had begun and appropriate COTS products, which were
previously unavailable, were now available.




       16
          The first two components of Trilogy were completed in April 2004 at a cost of
$337 million, almost $100 million more than originally planned. The FBI spent
approximately $170 million on the Virtual Case File project before the project was
terminated.
       17
           IV&V is a standard information technology investment management (ITIM)
process whereby an independent entity assesses the system as it is developed in order to
evaluate if the software will perform as intended. A service-oriented architecture is a
collection of services that communicate with each other. The communication can involve a
simple data exchange or two or more services coordinating on an activity.
       18
          U.S. Department of Justice, Office of the Inspector General, The Federal Bureau of
Investigation’s Management of the Trilogy Information Technology Modernization Project,
Audit Report 05-07 (February 2005).


                                           -3-
      The FBI’s attempt to move from a paper-based to an electronic case
management system began in mid-2001 with the Trilogy project, which
consisted of three components: (1) hardware and software;
(2) communications network; and (3) the Virtual Case File, which was
supposed to replace the FBI’s five most important investigative applications,
including ACS. 19 In late 2004, after about 3 years of development, the FBI
commissioned the Aerospace Corporation to perform a study evaluating the
functionality of COTS and government off-the-shelf technology to meet the
FBI’s case management needs. The Aerospace Corporation followed this
study with an independent verification and validation (IV&V) report on the
Virtual Case File in January 2005, which recommended that the FBI pursue a
COTS-based, service-oriented architecture. 20

       In February 2005, the OIG issued a report on the Trilogy project
questioning the FBI’s ability to complete and deploy the Virtual Case File. 21
At the end of April 2005, the FBI reported that it had terminated work on the
Virtual Case File due to the lack of progress on its development. The FBI
said that the “marketplace” had changed significantly since the Virtual Case
File development had begun and appropriate COTS products, which were
previously unavailable, were now available.




       19
          The first two components of Trilogy were completed in April 2004 at a cost of
$337 million, almost $100 million more than originally planned. The FBI spent
approximately $170 million on the Virtual Case File project before the project was
terminated.
       20
           IV&V is a standard information technology investment management (ITIM)
process whereby an independent entity assesses the system as it is developed in order to
evaluate if the software will perform as intended. A service-oriented architecture is a
collection of services that communicate with each other. The communication can involve a
simple data exchange or two or more services coordinating on an activity.
       21
          U.S. Department of Justice, Office of the Inspector General, The Federal Bureau of
Investigation’s Management of the Trilogy Information Technology Modernization Project,
Audit Report 05-07 (February 2005).


                                           -4-
Sentinel

      Similar to what the FBI had envisioned for the Virtual Case File,
Sentinel is intended to not only provide a new electronic case management
system, transitioning the FBI files from paper-based to electronic records,
but also streamline processes for maintaining investigative lead and case
data. In essence, the FBI expects Sentinel to be an integrated system
supporting the processing, storage, and management of information to allow
the FBI to more effectively perform its investigative and intelligence
operations.

       According to the FBI, the use of Sentinel in the future will depend on
the system’s ability to adapt to evolving investigative and intelligence
business requirements. Therefore, the FBI is developing Sentinel using a
flexible software architecture that should permit economical and efficient
changes to software components as needed. According to the FBI, a key
element of the Sentinel architecture contributing to achieving this flexibility
is the use of COTS and government-off-the-shelf applications software.

      FBI agents are required to document investigative activity and
information obtained during an investigation. From a case’s inception to its
conclusion, the case file is the central system for holding these records and
managing investigative resources. FBI agents and analysts currently create
paper files, making the process of adding a document to a case file a highly
paper-intensive, manual process. Files for major cases can contain over
100,000 documents, leads, and evidence items.

        Currently, the documentation within case files is electronically
managed through ACS, which maintains electronic copies of most documents
in the case file and provides references to documents that exist in hardcopy
only. However, ACS is severely outdated, cumbersome to use, and does not
facilitate the searching and sharing of information. As a result, agents and
analysts cannot easily acquire and link information across the FBI.

      In contrast, the FBI expects Sentinel to greatly enhance the usability
of case files for agents and analysts, both in terms of adding information to
case files and more efficiently searching for case information. FBI
supervisors, reviewers, and others will also be able to review, comment on,
and approve the insertion of documents into appropriate FBI electronic files
using Sentinel.




                                      -5-
Sentinel’s Phased Approach

       As originally conceived, the FBI expected to develop the Sentinel
program in four partially overlapping phases, each lasting approximately
12 to 16 months. Each phase, when deployed, was to provide a stand-alone
set of capabilities upon which subsequent phases would be added to
complete the Sentinel program. 22

      As a result of lessons learned during the development of Phase 1, the
FBI and Lockheed Martin replanned the remaining phases of Sentinel before
developing Phase 2. During this replanning, the FBI and Lockheed Martin
adopted an incremental development methodology for Sentinel that divided
Phases 2 through 4 into segments, which were further divided into
increments. One of the major reasons for switching to the incremental
development model was the FBI’s desire to deliver new capabilities to users
approximately every 3 to 6 months.


Earned Value Management System

      Earned Value Management (EVM) is a tool that measures the
performance of a project by comparing the variance between established
cost, schedule, and performance baselines to what is actually taking place.
These variances are measured periodically to give project managers a timely
perspective on the status of a project. EVM reporting is an important risk-
management tool for a major IT development project such as Sentinel
because it can provide an early warning when a project is heading for
trouble.

       In August 2005, the Office of Management and Budget (OMB) issued a
memorandum requiring all federal agency Chief Information Officers to
manage and measure all major IT projects using an EVM system.
Additionally, all agencies were required to develop policies for full
implementation of EVM on IT projects by December 31, 2005. The
Department of Justice (Department) issued its EVM policy in July 2006. In
response to these requirements, the FBI developed a Sentinel Program EVM
Capability Implementation Plan in August 2006 and subsequently acquired a
tool to implement an EVM system for the Sentinel project.



       22
          For a detailed description of the capabilities originally intended for each of the
four phases, see pages 6 and 7 of the U.S. Department of Justice Office of the Inspector
General’s previous report on Sentinel. Sentinel Audit IV: Status of the Federal Bureau of
Investigation’s Case Management System, Audit Report 09-05 (December 2008).


                                             -6-
Prior Reports

        Since 2006, the OIG has issued four reports on Sentinel’s progress.
The fourth OIG report on Sentinel, issued in December 2008, examined:
(1) the lack of performance measures for Phase 1 of the Sentinel project,
(2) Sentinel’s adoption of an incremental development methodology,
(3) increases in the project’s cost and schedule, and (4) the resolution of
concerns identified in the OIG’s previous Sentinel audits. 23 The OIG’s fourth
audit report found that the FBI had resolved most of the concerns identified
in its first three Sentinel audits. However, we identified the following areas
that warranted continued monitoring: (1) identification of the data that will
be stored in Sentinel, (2) the data collection process, (3) identification of the
paper forms that will be replaced with electronic forms, and (4) identification
of the statistics that will be stored in Sentinel and how those statistics will be
collected.

       Over the last few years, the Government Accountability Office (GAO)
has also issued several reports examining the FBI’s efforts to develop a new
case management system. Most recently, in September 2008 the GAO
issued a report on the FBI’s acquisition methods for Sentinel. The GAO
determined that the FBI was managing Sentinel requirements by making
sure that changes to established baselines were justified and approved on
the basis of costs, benefits, and risks; and the FBI was ensuring that
different levels of requirements and related design specifications and test
cases were properly aligned with one another. In addition, the GAO found
that the FBI was analyzing commercially available product alternatives based
on requirements, costs, and other factors to ensure that the most cost-
effective mix of products was being used to minimize requirement gaps. The
GAO also noted that the FBI was taking steps to understand the
dependencies among the various commercial products that would make up
Sentinel, thus ensuring that they can interoperate effectively. Finally, the
GAO noted that the FBI was taking steps to ensure that Sentinel integration
with FBI legacy systems would occur when needed. The GAO concluded
that, collectively, those acquisition methods should increase the probability
that Sentinel would meet its cost, schedule and performance goals. 24


       23
          For a summary of our first three Sentinel reports, see pages 10 and 11 of the U.S.
Department of Justice Office of the Inspector General’s previous report on Sentinel.
Sentinel Audit IV: Status of the Federal Bureau of Investigation’s Case Management
System, Audit Report 09-05 (December 2008).
       24
         U.S. Government Accountability Office, Information Technology: FBI is
Implementing Key Acquisition Methods on Its New Case Management System, but Related
Agencywide Guidance Needs to Be Improved, GAO-08-014 (September 2008).


                                           -7-
                 FINDINGS AND RECOMMENDATIONS

       FINDING 1: OVERALL PROJECT STATUS

       Since our last report in December 2008, the FBI’s estimate of
       Sentinel’s total cost of $451 million has not changed. As of May
       2009, Sentinel’s reported costs totaled approximately
       $290.4 million or 64.4 percent of the overall projected cost. As
       of August 2009, however, the FBI estimated that Phase 4, the
       last phase of Sentinel’s development, will be completed on
       September 20, 2010, 3 months later than we previously
       reported and 9 months later than originally planned in June
       2006. Moreover, the completion date for Phase 2 was also re-
       scheduled to October 16, 2009, 3 months later than previously
       scheduled because of challenges the FBI encountered in
       deploying electronic forms. 25 In addition, the FBI has limited
       funding for Phase 3 until Phase 2 is completed in order to ensure
       program continuity and retention of contractor personnel. As we
       previously reported, the Sentinel Program Management Office
       (PMO) requires a highly skilled and integrated staff to
       successfully oversee Sentinel’s development. However, from
       January 2008 to May 2009 the number of vacancies has more
       than doubled to 6 out of 77 positions.

Sentinel Costs

      At Sentinel’s inception in March 2006, the FBI reported that Sentinel
would cost a total of $425 million, which included $305 million for Lockheed
Martin to develop and maintain Sentinel, and $120 million for Sentinel PMO
operations to perform project IV&V and to establish a risk reserve fund for
unforeseen changes to the project’s scope. After the completion of Phase 1,
the FBI and Lockheed Martin replanned the remaining phases of Sentinel
and, as of November 2007 the FBI’s estimate for the total cost of Sentinel
increased to $451 million. According to FBI officials, as of August 2009
Sentinel’s costs are still expected to total $451 million. The FBI’s January
2009 spend plan reallocated approximately $6.75 million from the Sentinel
PMO, Risk Management Reserve, Strategic Planning, and IV&V to the
Sentinel Development and Operations and Maintenance (O&M) categories.
The reallocation also increased the planned value of Lockheed Martin’s


       25
          While the FBI expects to accept delivery of Phase 2 in October 2009, it does not
expect to deploy Sentinel’s Phase 2 capabilities to all users until December 2009.


                                           -8-
contract by approximately $6.3 million. Table 1 shows the changes in the
Sentinel spend plans from November 2007 to January 2009 by category.

              TABLE 1: SENTINEL SPEND PLAN BY CATEGORY




Source: FBI

       In June 2009, Lockheed Martin submitted an engineering change
proposal (ECP) that included detailed cost estimates for Phases 3 and 4.
While the FBI and Lockheed Martin have agreed on the costs and schedules
for Phases 3 and 4, the FBI has not fully accepted the ECP. Under the
proposal, the development of Phase 3, which began in August 2009,
overlapped with the development of Phase 2. However, the FBI’s Acquisition
Review Board decided in July 2009 to not fully fund the ECP and only funded
the first increment of Phase 3. 26 The remaining increments of Phase 3 will
not be funded until Phase 2 is completed. In the ECP, the proposed cost to
develop the remaining phases of Sentinel, Phases 3 and 4, increased by
$4.88 million or 7.3 percent. The ECP also included reallocation of
requirements between Phases 3 and 4 and, as a result, costs have been
transferred between the phases. The cost for Phase 3 increased 50 percent

       26
          The purpose of the Acquisition Review Board is to ensure that the FBI has a sound
plan for approaching its major procurement actions. The Acquisition Review Board must
approve acquisition plans for purchases with an estimated cost of $5 million or more.


                                          -9-
from $33.51 million to $50.36 million in the ECP, while the proposed cost for
Phase 4 decreased 36 percent from $33.37 million to $21.4 million.

      In addition to reallocating requirements between the phases, the FBI
revised the Sentinel spend plan. The revisions transferred funds from
Phases 1 and 2 to Phase 3 and the operation and maintenance of Sentinel.
According to FBI officials, the new incremental development approach to
Sentinel required additional resources for Sentinel operations and
maintenance prior to the completion of its development.

Sentinel Schedule

      Based on Lockheed Martin’s June 2009 ECP, the FBI estimates
Phase 4 will be completed in September 2010, 3 months later than we
reported in our December 2008 report and 9 months later than originally
planned in June 2006. Phase 3 development was scheduled to begin in April
2009, but did not begin until August 2009. As a result, and because several
Phase 4 requirements were added to Phase 3, the scheduled completion date
for Phase 3 was delayed by 4 months from the date planned at the
beginning of Phase 2. In June 2009, the completion date for Phase 2 was
revised to October 16, 2009, 3 months later than previously reported. (See
Finding 2 for a more detailed discussion of the Phase 2 schedule.) Table 2
below shows the current Sentinel schedule.

               TABLE 2: SENTINEL DEVELOPMENT SCHEDULE

              Contract Phase                           Dates
 Phase 1 Development                    March 2006 – June 2007
 Phase 1 Operations and Maintenance     May 2007 – May 2012
 Strategic Plan Development             May 2007 – September 2007
 Phase 2 Development                    October 2007 – October 2009
 Phase 3 Development                    August 2009 – June 2010
 Phase 4 Development                    April 2010 – September 2010
Source: FBI




                                   - 10 -
Requirements and Capabilities

       During the course of the project, the FBI has reallocated Sentinel’s
planned requirements among its four phases. Generally, the Sentinel PMO
moved the completion, or full satisfaction, of Sentinel’s requirements to
earlier phases with the intention of reducing the FBI’s risk exposure created
by the high number of requirements originally planned to be implemented
during Phase 4. Moving requirements to earlier phases generally provides
the Sentinel PMO the opportunity to address problems earlier in the
development process. According to the Deputy Program Manager, the FBI’s
current plan moves most new development out of Phase 4. While Phase 4
will satisfy over 100 requirements, the goal of the phase is to migrate data
from ACS to Sentinel and test the overall system. Table 3 below shows how
the distribution of Sentinel’s requirements across the remaining phases of
the project has changed since its original plan.

Table 3: DISTRIBUTION OF REQUIREMENTS PLANNED TO BE FULLY
                    SATISFIED BY PHASE

700

                    606                                 604
600           576
                          553


500
                                                  439
        412
400                                   370                                       Original
                                            318                                 Apr - 08
300                                                                             Mar - 09
                                                                                Aug - 09
                                                              191   188
200
                                                                          125
                                107
100


  0
              Phase 2                 Phase 3                 Phase 4

Source: FBI

Attorney General Guidelines for Domestic FBI Operations

      In addition to the reallocation of requirements among the phases,
additional requirements have been added to Sentinel since its inception. On
September 29, 2008, the Department of Justice issued new Attorney General
Guidelines for Domestic FBI Operations. Among other things, the revised
guidelines enhanced the FBI’s complaint assessment process. However, the


                                            - 11 -
requirements necessary to implement these new enhancements were not
included in the original Sentinel System Requirements Specifications, so
revising the system to accommodate these new guidelines expanded the
scope of the Sentinel project. Lockheed Martin estimated that the new
requirements would cost about $3.1 million to implement. The FBI rejected
Lockheed Martin’s proposal for how to address the AG Guidelines because,
according to the Sentinel PMO, Lockheed Martin’s proposal included items
that were not needed. As a result, the Sentinel PMO plans to ask Lockheed
Martin for an estimate on a more precisely defined scope of work.

      The Sentinel PMO has not assigned development of the new
requirements to a specific phase of the project because it has not received
requirements and metrics data from the FBI’s Corporate Policy Office and
Resource Planning Office. The Sentinel Program Manager said that the
results of this process will be completed before Phase 4’s scheduled
deployment. As of August 2009, the FBI has not determined how much the
change in requirements will increase Sentinel’s cost.

Annual EVM Surveillance Review

       In September 2008, a team from the Department of Justice conducted
an annual review of Sentinel’s Earned Value Management program. The
review team examined EVM data and reports and discussed EVM issues with
Sentinel personnel. The team concluded that Sentinel’s EVM program was in
compliance with the relevant standards but recommended that the FBI
review Sentinel’s use of its risk management reserve and contractor award
fee, review the categorization of Sentinel PMO personnel as “Level of Effort”
for EVM reporting purposes, and update its EVM description. The FBI
implemented these changes and the recommendations were closed by the
Department’s EVM review team.




                                   - 12 -
Sentinel PMO Staffing

       Due to the scope and importance of the project, Sentinel requires a
highly skilled and integrated Sentinel PMO staff. In our previous audits, we
found that there were vacancies within the Sentinel PMO and we
recommended that the Sentinel PMO fill the vacancies as soon as possible to
ensure Sentinel’s successful development. The Sentinel Staffing Plan is the
Sentinel PMO’s staffing policy that establishes the authorized Sentinel PMO
staff level and the skills required by each position. However, while the
staffing needs of the Sentinel PMO have changed during the project, we
found that the Sentinel PMO has not adjusted the staffing plan accordingly.
Instead, we found that the Sentinel PMO updates its organization chart when
personnel requirements change.

       As of May 2009, the Sentinel PMO Organization Chart, which depicts
the Sentinel PMO’s current staffing level, included 77 total planned staff, one
less than the 78 positions in the current staffing plan. In addition, the
Sentinel PMO Organization Chart included five positions not required by the
Sentinel PMO Staffing Plan and did not reflect four positions included in the
Sentinel PMO Staffing Plan. Among the most significant changes made to
the Sentinel PMO’s staffing level were the movement of positions within the
Sentinel PMO, the elimination of an engineer with oversight responsibilities
in the Sentinel PMO, and the vacancy of the newly added Human Factors
Engineer position. 27

Sentinel PMO Positions

       There were several positions in the Sentinel PMO Organization Chart
that were moved or deleted since development of the Sentinel PMO Staffing
Plan. For example, a position under the Program Support Unit was deleted
from the Sentinel PMO’s Organizational Chart and renamed and aligned
under the User Representative and Policy Unit. The most current PMO
Staffing Plan listed the same position under the Program Support Unit, but
did not list the new position title or its location. Another change involved
two lead positions under the Program Support Unit that were deleted. The
Program Support Unit Lead is now responsible for performing the
responsibilities previously assigned to those deleted positions. As a result of
these changes, the current PMO Staffing Plan did not capture the staffing
levels and skill needs of Sentinel.


       27
          Human factors engineering is the discipline of applying what is known about
human capabilities and limitations to the design of products, processes, systems, and the
work environment.



                                          - 13 -
       While we understand that the Sentinel PMO’s staffing needs will
change throughout the life of the project, the Sentinel PMO Organization
Chart should be based on the Sentinel PMO Staffing Plan. A current staffing
plan will allow Sentinel’s project management to better define and plan for
the staffing needed to manage Sentinel’s development and implementation
effective. The Sentinel PMO agreed that the Sentinel Staffing Plan needs to
be updated to assess the future resource needs of the project.

Sentinel PMO Engineer

       When Sentinel adopted its incremental development approach, many
of the traditional development approach steps required by the FBI’s IT Life
Cycle Management Directive were eliminated. 28 To ensure oversight of
Sentinel’s development, the FBI’s Chief Technology Officer assigned an
engineer to the Sentinel PMO at the beginning of Phase 2 to perform this
function. However, the Chief Technology Officer eliminated this key
oversight position early in 2009 because he believed the engineer’s role at
the Sentinel PMO was not well-defined, the Sentinel PMO received sufficient
oversight from other organizations such as the IV&V and the Department Of
Justice Investment Review Board, and the engineer was needed for higher
priority projects. We believe that an engineer from the FBI’s Office of the
Chief Technology Officer would enhance oversight of the Sentinel program
because that engineer would have a much more defined technical knowledge
of the project and access to channels of communication to both receive and
deliver project information unavailable to the OIG or the GAO. PMO officials
told us that the Office of the Chief Technology Officer changed its approach
to monitoring and now performs spot checks rather than having staff
dedicated to Sentinel.

Human Factors Engineer

      The Sentinel PMO’s Human Factors Engineer is responsible for ensuring
that Sentinel is user-friendly and that the final product effectively satisfies
user requirements. The Sentinel PMO added this position in 2008, but as of
May 2009 it was vacant. While Lockheed Martin has Human Factors
Engineers working on Sentinel, we believe that an independent Human
Factors Engineer assigned to the Sentinel PMO would provide the FBI with
greater assurance that the system Lockheed Martin develops meets the
needs of the FBI.

       28
          The Life Cycle Management Directive (LCMD) provides processes that guide the
development of IT projects. The LCMD covers the entire IT system life cycle, including
planning, acquisition, development, testing, and operations and maintenance. As a result,
the LCMD provides the framework for standardized, repeatable, and sustainable processes
and best practices in developing IT systems.


                                          - 14 -
Sentinel PMO Vacancies and Staff Turnover

      As of May 2009, the Sentinel PMO had six vacancies: (1) Human
Factors Engineer, (2) EVM Analyst, (3) Intelligence Analyst, (4) Intelligence
Support Specialist, (5) Supervisory Special Agent, and (6) Networking
Systems Engineer. As previously discussed, we believe that a Human
Factors Engineer is a prudent addition to the Sentinel PMO staff. For the
Sentinel PMO to accurately report Sentinel’s progress, we also believe that
an EVM analyst is vital, since this position would be responsible for reporting
on the schedule, cost, and performance of the project. We believe that
these two vacancies should be a staffing priority for the Sentinel PMO.

       In addition, at the time of our last audit in 2008, the Sentinel PMO
reported two vacant positions, an Intelligence Support Specialist and a
Supervisory Special Agent. The Sentinel PMO has not filled either of these
positions. FBI officials told us these vacancies have not been filled because
of the FBI's focus on pursuing terrorism, intelligence, and criminal
investigations, as well as competing for temporary staff from other divisions
within the FBI. To mitigate the impact of these vacancies on Sentinel
operations, Sentinel PMO officials said they were soliciting input from field
office staff on Sentinel.

       Since our last audit, the Sentinel PMO has experienced an increase in
personnel turnover. The Sentinel PMO lost staff in key positions, including
Deputy Program Manager, Contracting Officer’s Technical Representative,
Program Support Unit Chief, and Quality Manager. While the Program
Support Unit Chief and the Contracting Officer’s Technical Representative
positions were filled by existing Sentinel PMO staff, the replacement staff’s
previous positions were left vacant.

       In light of the FBI’s aggressive development and deployment schedule
for Sentinel, we are concerned that increased staff turnover may negatively
affect the Sentinel PMO’s ability to properly oversee the project. The Trilogy
project, which had 15 different key IT managers over the course of its 3.5-
year life, offers lessons on the importance of maintaining consistent project
oversight. Because an adequately staffed Sentinel PMO is vital to Sentinel’s
success, we believe the FBI should focus on ensuring the Sentinel PMO is
fully staffed. (For a more complete description of Sentinel PMO staff and
their duties, see Appendix V.)




                                    - 15 -
Conclusion

       In two of our previous Sentinel reports, we commented on Sentinel’s
aggressive schedule and the risk that the completion of Phase 4 could be
delayed. Because the FBI revised the schedule for Phases 3 and 4 after our
audit work was completed, we did not have an opportunity to analyze the
rationale for the revised schedule. However, based on our understanding of
the project, we believe that the revised schedule is more realistic and that
extending the schedule increases the likelihood that Sentinel will satisfy
users’ requirements when it is completed. In June 2009, Lockheed Martin
submitted an engineering change proposal that included detailed cost and
schedule estimates for Phases 3 and 4. As a result, Phase 4, the project’s
final phase, is scheduled to be completed on September 20, 2010, 3 months
later than we previously reported and 9 months later than originally planned
in June 2006. In addition, the completion date for Phase 2 was re-scheduled
to October 16, 2009, 3 months later than stated in our previous report.

      We believe that the Sentinel PMO needs a fully staffed, highly skilled,
and integrated staff to successfully oversee Sentinel’s development. We
found that the current PMO Staffing Plan did not capture the current staffing
needs of the project, including the staffing and skill levels needed to ensure
that Sentinel is completed successfully. We are also concerned that the
vacancy rate at the PMO has more than doubled since our last report.

Recommendations

      We recommend that the FBI:

      1. Update the Sentinel Staffing Plan to ensure that all of the needs of
         the Sentinel PMO are covered by positions within the plan.

      2. Expeditiously fill the vacant positions within the updated Sentinel
         PMO Staffing Plan to ensure that the staffing needs of the project
         are being met.




                                    - 16 -
       FINDING 2: PHASE 2 STATUS

       We found that the expected cost, schedule, and scope of Phase 2
       have increased since our last audit. Sentinel’s Phase 2 has
       4 segments, the first 3 of which have been completed. The FBI
       accepted delivery of Phase 2, Segment 3 of Sentinel in June
       2009. This segment delivered: (1) interfaces to six FBI IT
       systems, (2) enhanced system administration, (3) portions of
       Sentinel’s records management capability, (4) a user-friendly
       method of sending and receiving tasks, and (5) the ability to
       extract administrative case data from ACS. However, the FBI
       did not deploy eight electronic forms and their corresponding
       automated workflows because the FBI’s new access control tool
       did not function as intended.

       We concluded that development of electronic forms and
       automated workflows that meet user expectations continues to
       be a challenge in Segment 4 for the Sentinel PMO. On June 17,
       2009, after spending $810,000 to develop the electronic forms,
       the Sentinel PMO requested approval from the Department’s
       Chief Information Officer to rebaseline Segment 4 and
       incorporate a new approach to develop electronic forms and their
       associated automated workflows. 29 Phase 2, Segment 4 is now
       expected to be completed on October 16, 2009, and the
       segment is scheduled to still include all of the significant
       capabilities originally planned as well as three new user-friendly
       forms. However, some of the deliverables originally scheduled
       for Phase 2 have been deferred to later phases of the project.




       29
           Rebaselining, an earned value management term, revises a project’s planned
baselines and eliminates all cost and schedule variances. Rebaselining usually occurs when
a project’s progress deviates significantly from the original plan and the remaining time and
funds are not sufficient to complete the project.


                                           - 17 -
Phase 2 Overview

      Phase 2, which is divided into four segments, was intended to deliver
eight electronic forms, implement more efficient work processes, and begin
the migration of administrative case data currently in ACS to Sentinel. 30 As
discussed in greater detail throughout this finding, the FBI revised its
expectations for Phase 2. Table 4 shows the major user capabilities each
segment delivered or will deliver.

            Table 4: PHASE 2 USER CAPABILITIES BY SEGMENT


      Segment                       User Capabilities                         Status




            1                                                              COMPLETED
                   •

                   •

            2                                                              COMPLETED
                   •


            3      •                                                       COMPLETED
                   •
                                                       .


                                                                            In Progress
                                                                               (as of
            4
                                                                            September
                                                                               2009)
                   •

    Source: FBI



Phase 2 Status

      The expected cost, schedule, and scope of Phase 2 have increased
since our last audit. The FBI expects that Phase 2 will be delayed at least 3
months and cost an additional $14 million to develop. We identified three

       30
           Electronic forms are the Sentinel screens that agents, analysts, and staff will use
to input case information. This information will then be loaded into and maintained by
Sentinel.


                                            - 18 -
major factors that contributed to the schedule delay and cost increase.
First, during Segments 2 and 3, Lockheed Martin and the Sentinel PMO
encountered problems developing Sentinel’s electronic forms, such as the
intake and import forms, and their supporting automated workflows. (See
Appendix III for a list and description of Sentinel’s electronic forms.)

      Second, the successful development of Sentinel is dependent on the
Enterprise Directory Services (EDS) access control tool, which did not
perform as intended and did not deliver the planned security requirements
for Phase 2. 31

      Third, the FBI reallocated requirements from Phases 3 and 4 to Phase
2, Segment 4.

      In addition to the changes in the cost, schedule, and scope of Phase 2,
we are concerned that the lack of progress the FBI has made in planning for
the migration of administrative case data from ACS to Sentinel will delay the
completion of Phase 2, Segment 4 and potentially increase Sentinel’s overall
cost.

Segment 2

      Segment 2 included five increments, Increments 5 and 7 through 10. 32
When the FBI deployed Segment 2 in August 2008, it was within budget and
only 2.5 weeks behind schedule, but the segment did not deliver substantial
portions of its planned capabilities. A discussion of each of the segment’s
increments follows.

Increment 5

      The objective of Increment 5 was to develop electronic import and
intake forms as well as the initial automated workflow capability to




       31
           EDS is part of a portfolio of security services entitled the Identity Access
Management (IAM) Initiative that the FBI plans to implement. IAM will identify individuals
within a system and control their access to information within that system through an
established identity that will grant a user access to specific resources based on company
policies and the permission level assigned to the user.
       32
           The Sentinel PMO deferred Increment 6 to Phase 4. See page 20 for a more
detailed discussion.



                                          - 19 -
electronically forward the forms to the appropriate approving official. 33
Lockheed Martin developed the import and intake forms as scheduled.
However, while the forms met the technical requirements of the project,
they did not meet FBI users’ needs. For example, the paper versions of
these forms are one or two pages in length. In Sentinel, the intake form
was as long as seven pages. In addition, the forms were not intuitive in that
an entry in one field did not automatically direct the cursor to the next
logical field. Instead, users had to scroll through the entire form manually.

       We believe that the Sentinel PMO should have obtained user input
earlier in the forms development process. According to the Sentinel
Program Manager, users who reviewed the Segment 2 forms said the forms
met only about 80 percent of their needs. In addition, the Independent
Verification and Validation (IV&V) contractor and the Sentinel PMO official
responsible for testing products delivered to the Sentinel PMO said that their
inability to view products early in the development process prevented them
from providing the Sentinel PMO with valuable feedback. The Sentinel PMO’s
decision to not involve users, the IV&V contractor, and the Sentinel PMO
testing official earlier in the forms development process caused unnecessary
revision of the forms, which increased the cost and delayed the schedule.

      Because of user concerns about the forms, the Sentinel Program
Manager did not deploy the forms as part of Segment 2. The deployment of
the intake and import forms was deferred to Segment 3, Increment 12,
which already included requirements to develop five other forms.

Increment 6

      Increment 6 was originally intended to develop and deploy a Sentinel
intrusion detection system. This system would assist security personnel in
preventing intrusion attempts, notify security personnel of an intrusion, and
capture related alerts in audit logs. The Sentinel PMO deferred this
increment and $823,692 in associated costs to Phase 4 to determine if the
requirements for a host intrusion detection system are redundant with other
intrusion detection capabilities implemented in Phase 1 of Sentinel or
provided by other FBI systems. However, according to the Sentinel Program
Manager, the elimination of Increment 6 did not impact the Segment 2
schedule because the increment had not been fully planned, so Lockheed
Martin did not know how long it would take to accomplish.


      33
          The import form is used to transport non-Sentinel documents into Sentinel. The
intake form is used to document each complaint received by the FBI and the FBI’s
assessment of the action necessary to respond to the complaint.



                                         - 20 -
Increment 7

      Increment 7 contained activities necessary to prepare for the
migration of administrative case data from ACS to Sentinel. During this
increment, Lockheed Martin installed new hardware that will allow it to work
with actual case data and restricted data during a future increment.
Lockheed Martin also tested the quality of the data to be migrated in ACS
and provided error assessment reports to the FBI for the administrative
cases.

Increment 8

      Increment 8 deployed a new hardware architecture to improve system
availability and performance.

Increment 9

       Increment 9 updated the Sentinel Enterprise Portal (SEP), which was
originally deployed in Phase 2, Segment 1. The improvements included a
Squad Members Table, enhanced personal customization, and a web-based
version of the calendar contained in the FBI’s enterprise e-mail system. The
Squad Members Table allows supervisors to see a list of everyone assigned
to a squad and the cases and leads to which they are assigned. The
enhanced personal customization allows users to customize the portal to suit
their personal preferences, such as the order of information displayed in
portlets. The portlet displaying a user’s calendar was not originally planned
for this increment, but the Sentinel PMO added it after receiving numerous
requests for this capability from users.

Increment 10

     Increment 10 improved Sentinel’s security auditing capability. This
capability allowed the system to maintain an audit trail of user activity.




                                    - 21 -
Segment 3

      Segment 3 consisted of seven increments, Increments 11 through 14,
16, 18, and 19. 34 The FBI accepted delivery of Segment 3 from Lockheed
Martin in April 2009 but did not deploy all of the increments contained in the
segment. When the FBI accepted delivery of Segment 3, the segment did
not deliver substantial portions of its planned capabilities. The Sentinel
Program Manager said Segment 3 was critical to Sentinel’s overall schedule
because this segment included the integration of Sentinel with two other FBI
IT systems.

Increment 11

       Increment 11 was designed to provide Sentinel with the early stages
of its own access controls, which would manage users’ access to specific
system and network resources based on the level of authority assigned to
them. Prior to this increment, Sentinel relied on ACS’s access controls to
determine a user’s access to data and authority to perform functions within
Sentinel.


               .

      Enterprise Directory Services

      EDS was deployed in January 2009 to provide a uniform source of data
to FBI IT systems, including Sentinel, to limit access to information to those
users who have the appropriate permissions, and to ensure users exercise
only their permitted roles in the automated workflows. Sentinel was the first
FBI IT system to utilize EDS.


               .

      Lockheed Martin successfully integrated EDS with Sentinel but, as
discussed in Increment 12, the FBI was unable to rely on EDS because of
discrepancies between EDS’s authoritative data sources and ACS data.
Therefore, Sentinel will continue to rely on ACS for access controls until
Phase 2 is completed.



      34
           Increments 15 and 17 were combined into Increments 12 and 18, respectively.



                                         - 22 -
       Public Key Infrastructure & Web Reduced Sign-on

      Sentinel’s integration with PKI will enhance Sentinel’s security, allow
users to digitally sign documents, and when combined with Web Reduced
Sign-on, eliminate the requirement for users to separately sign-on to the
systems available through the Sentinel Enterprise Portal. 35 As of April 2009,
PKI had approximately           FBI users. Sentinel PMO personnel have
expressed concern about whether the PKI system can handle the demands
an additional          to       Sentinel users will place on the infrastructure
when PKI is deployed in Sentinel. Specifically, Sentinel PMO personnel are
concerned with the PKI system’s capacity to provide quick responses to the
planned           to        Sentinel users because the PKI system is running
on outdated hardware. Sentinel users may experience longer PKI response
time as an increase in Sentinel response time. However, the PKI Program
Manager said she believes the PKI system can handle the increased
workload and provide Sentinel users with quick responses.

       In addition to concerns about the impact of increased users on the PKI
system, the Sentinel IV&V contractor identified three issues related to the
Security Access Control System (SACS) cards the FBI currently uses as part
of its PKI initiative: (1) not all potential Sentinel users have received SACS
cards, (2) previous cards have failed, and (3) the cards may need to be re-
issued to some users. The FBI’s PKI system also contains outdated
information so many employees will need to have their accounts updated.

      To address these issues, users will be allowed to log-on to Sentinel
using either PKI authentication or username and password authentication
during a transition period. However, according to the Sentinel Program
Manager, the use of a SACS card will be mandatory for all Sentinel users
after Phase 2 is completed. The FBI is considering instituting a 30 to 90 day
grace period to allow all users to re-activate or obtain necessary PKI
accounts, cards, and equipment. The FBI’s Information Technology
Operations Division (ITOD) will be responsible for resolving PKI user issues,
so close coordination between the Sentinel PMO and ITOD will be necessary.
The Sentinel PMO should continue to monitor the status of these PKI issues
to ensure that Sentinel can rely on PKI by the time Phase 2 is completed.

Increment 12

      Increment 12 was a key component of Segment 3 because it was
intended to deliver the most capability to the average Sentinel user. Under

       35
            The Public Key Infrastructure uses smartcards and encryption to enhance network
security.


                                           - 23 -
this increment, Lockheed Martin was required to develop five forms for
operational use:

                               . In addition, Lockheed Martin was supposed
to deliver the                forms, the completion of which the FBI
originally deferred from Segment 2 to Segment 3. Increment 12 was also
supposed to deliver the following capabilities:




      According to the Sentinel PMO, in March 2009 the FBI eliminated the
requirement for off-line authoring because users preferred on-line authoring
and Lockheed Martin encountered several technical problems with the off-
line authoring, including the forms taking about 90 seconds to load. The
Sentinel Program Manager said that the off-line authoring requirement was
one of several requirements the FBI changed because the FBI’s needs had
changed in the 5 years since the requirements initially were written.
According to the Sentinel Program Manager, Lockheed Martin delivered all of
the remaining capabilities required by Increment 12, thus completing
Segment 3. However, the FBI decided not to deploy Increment 12 because
of the increment’s interdependency with EDS and the directives established
in the new Attorney General Guidelines that affect Sentinel forms but were
not included in the original Sentinel System Requirements Specifications.

     Enterprise Directory Services

       The forms developed in Increment 12 rely on an automated workflow,
which was designed to forward the forms to the appropriate approving
official based on access privileges and user roles identified in the
authoritative data sources. The automated workflow capability is dependent
on the accuracy of the authoritative data sources. As previously discussed,
EDS assimilates information such as a user’s position, from four
authoritative data sources into a single view to ensure that the data has a
common and consistent format. However, the FBI was unable to rely on the
data in EDS because of discrepancies between authoritative data sources.




                                     - 24 -
                     X.




                     X.

Segment 4




            - 25 -
       As previously discussed, the Sentinel PMO encountered challenges with
the development of electronic forms during Segments 2 and 3. On June 17,
2009, after spending $810,000 developing forms using a forms software
package, the Sentinel PMO requested approval from the Department’s Chief
Information Officer to rebaseline Segment 4 to incorporate a new approach
that would use a web-based solution to develop the electronic forms and
automated workflows for Sentinel. In its request, the Sentinel PMO stated
that the new approach was necessary because the forms developed in
Segments 2 and 3 received unfavorable user feedback and that the user
interface was very complex.

      Under the new plan, Segment 4 will integrate concepts from the FBI-
developed prototype of the web-based user interface to enhance the

      . 36 Segment 4’s completion date, which had been moved to October
16, 2009, did not change under this new plan and the segment will still
include the capabilities required to transfer all of the administrative case files
from ACS to Sentinel. The migration of administrative case files consists of
(1) searching ACS for administrative case files, (2) copying all administrative
case files from ACS to Sentinel’s records management software, and
(3) checking the new files for errors. Sentinel PMO officials said they expect
to gain experience from this migration of administrative case files. However,
we are concerned that the Sentinel PMO lacks a detailed data migration plan
and that without such a detailed plan the Sentinel PMO cannot ensure that it
has adequate resources or time allocated to successfully migrate
administrative and investigative case file data from ACS.

      The Sentinel PMO anticipates the redirected Segment 4 will provide
users with the following benefits:

      •    a more intuitive user interface that will provide immediate access to
           relevant information based on the user’s job role and preferences,

      •    the ability to create documents directly in Sentinel without
           uploading, which will streamline serialization and allow users to
           attach electronic files containing supporting documentation,

      •    on-line help that is based on the function the user is performing,
           and

      •    improved response time.

      36




                                      - 26 -
       To accomplish its new plan and maintain the current segment
completion date, the Sentinel PMO deferred the development of
approximately $2.1 million of capabilities to Phase 3 of Sentinel. To
maintain its current overall budget, the Sentinel PMO will use approximately
$2.9 million of its risk management reserve to pay for the expanded scope
of Segment 4. The Sentinel PMO also reduced Lockheed Martin’s Sentinel
training budget by $800,000 to help offset the cost of the new plan.
However, the Sentinel PMO expects that the new user interface and forms
development process will reduce the cost of Phases 3 and 4 by $4 million.

Conclusion

      The Sentinel PMO has made significant progress towards developing
Sentinel’s infrastructure. One of the underlying concepts of Sentinel’s
incremental approach is to deliver new capabilities to users about every 6
months. However, during Segments 2 and 3 of Phase 2, the Sentinel PMO
encountered challenges in deploying forms that met users’ needs and
incorporated automated workflows. As a result, average Sentinel users have
not received any significant enhancements to Sentinel from these segments.

      The authoritative data sources issues encountered in EDS remain a
risk because Sentinel’s automated workflows depend on reliable EDS data.
If EDS cannot provide Sentinel with reliable data by the end of Phase 2, the
deployment of Phase 2, Segment 4 will be delayed and Sentinel will have to
continue to rely on ACS, the system Sentinel should be replacing, as its
authoritative source.

       Data migration is one of the major milestones that will affect the
ultimate success of Sentinel, as the data migration will make Sentinel the
primary repository of case file information. The Sentinel PMO should gain
valuable experience from the administrative case file migration to be
completed in Segment 4. While the Sentinel PMO has a conceptual plan to
complete the migration, a detailed Data Migration Plan still needs to be
created. Problems that occur during the migration of the administrative case
files could inform potential problems for the migration of data from
investigative case files.

       It is too early to know whether the Sentinel PMO’s new approach to
developing forms will be successful, but it is clear that the Sentinel PMO
used Sentinel’s incremental approach to its advantage. When Sentinel PMO
officials realized that Lockheed Martin’s original approach to forms would not
meet user needs, the Sentinel PMO revised its methodology. Such
corrections are more difficult and costly to make in the traditional software


                                    - 27 -
development model. User involvement in form development is vital to the
success of a project, regardless of the development approach chosen.

Recommendations

     We recommend that the FBI:

     3. Incorporate more user involvement throughout the remainder of
        Sentinel development.

     4. Develop a detailed Data Migration Plan for the migration of data
        from FBI case files.




                                  - 28 -
      FINDING 3: PHASE 2 USER ACCEPTANCE AND SYSTEM
                 PERFORMANCE


      Sentinel will represent a significant shift in the way the FBI
      documents investigations and case analysis by providing an
      electronic database for cases rather than the current paper-
      based system. During meetings in which the Sentinel PMO
      solicited feedback on Sentinel’s current functionality, the most
      frequent complaint regarding Sentinel was that it responds too
      slowly to user requests. These slow response times can be tied
      directly to Sentinel’s dependence on the FBI’s outdated network
      used to send and receive data. The feedback also demonstrates
      that Sentinel users do not differentiate between the FBI’s
      network performance and Sentinel’s performance. While not
      directly a part of the Sentinel project, the FBI is currently
      spending $39 million to improve and simplify its network
      architecture. We believe this upgrade is vital to improving use of
      Sentinel.

      In addition, the Sentinel Measurement Plan requires Lockheed
      Martin to submit an evaluation of Sentinel metrics, which helps
      measure the program’s development, in a monthly Measurement
      and Defect Report. We found several instances where the
      reports submitted by Lockheed Martin were either not provided
      or included outdated information. If the FBI does not have
      accurate data, it cannot adequately monitor Sentinel’s
      performance or assess progress toward meeting the FBI’s
      requirements for the completed version of Sentinel.

Phase 2 User Acceptance

      Since the deployment of Phase 1, the FBI has collected data on the
number of Sentinel users. To further understand the user data, a team of
FBI and Lockheed Martin personnel conducted interviews at FBI field offices.

Sentinel User Statistics

      From February 2008 to December 2008, the numbers of Sentinel and
ACS users were generally constant, with the exception of a significant
increase in Sentinel users during April 2008. The Sentinel Deputy Program
Manager for Organizational Change Management said that the FBI deployed
the Sentinel Enterprise Portal (SEP) in early April 2008, and the temporary


                                    - 29 -
increase in Sentinel usage was probably due to users trying to access the
new portal.

Field Office Visits

       A joint Sentinel PMO and Lockheed Martin team visited 10 FBI field
offices from December 2008 through January 2009. The purpose of these
visits was to meet with field office personnel and discuss their views on
Sentinel functionality and improvements made in recent releases of Sentinel.

      During the visits, the team also solicited user feedback on Sentinel’s
current functionality. Users most frequently identified the following two
issues:

       •    Sentinel takes too long to respond to user queries for information.
            The FBI has to expand or improve its network so that all of the
            applications delivered to users work as designed.

       •    Sentinel training for new employees is not adequate because the
            Sentinel training given at the FBI Academy is not detailed enough
            and occurs weeks before new employees use Sentinel at their new
            assignments.

FBI Network


      Sentinel PMO officials stated that the number one user complaint over
the last 2 years has been that Sentinel responds too slowly to user requests.
The slow response times are primarily caused by the FBI’s aging network
architecture and inadequate bandwidth. 37

       A Sentinel PMO official stated that the FBI’s planned updates to the
network architecture should improve Sentinel response time. To decrease
the number of communications processed by the network, the FBI plans to
simplify its network architecture by reducing the number of network
components that have to communicate with each other. The FBI also plans
to install network accelerators, which should increase the speed at which
requests travel through the network.

     We believe that if the FBI’s current network architecture is not
upgraded, users will continue to attribute Sentinel’s slow response time to


       37
          Bandwidth is the amount of data that can be carried from one point to another in
a given time period.


                                          - 30 -
Sentinel’s design rather than to deficiencies in the FBI’s overall network
infrastructure. For example, we learned that the Sentinel PMO and Lockheed
Martin team demonstrated how to access the Sentinel Enterprise Portal and
use Sentinel during their visit to the Jacksonville Field Office. However, in
response to routine queries, it took approximately 2 minutes for individual
pages to load and display on the screen. While the slow response was due
the network’s inability to accommodate the increased bandwidth required by
Sentinel, the 57 employees attending the demonstration attributed the delay
to Sentinel, not the FBI’s information technology network.

      The last FBI network upgrade was completed in 2003 as part of the
Trilogy project. The FBI plans to begin deploying its new network, the Next
Generation Network, in September 2009 and is scheduled to fully implement
the network by December 31, 2009. The FBI said the Next Generation
Network upgrade will cost $39 million for hardware and software. While this
upgrade will have a positive impact on all of the FBI’s operations that rely on
the network, the network upgrade is also essential for the success of
Sentinel.

      Sentinel Training

      The FBI provides Sentinel training through the FBI’s Virtual Academy,
the FBI’s online training program. Through the Virtual Academy, Sentinel
provides slide shows and other instructional materials. Sentinel’s
Communications and Training Unit personnel recognize the need for
additional training and support to supplement the online training for Sentinel
forms and automated workflows. However, this supplemental training has
not been developed because the Sentinel forms and automated workflows
have not been fully developed.

        The Sentinel PMO is also piloting a “virtual classroom” for future
training to address the limitations of Sentinel’s online training. The virtual
classroom will provide live video, audio, data, and graphics online to Sentinel
users. Because of Sentinel’s incremental development approach, significant
new functionality will be delivered to users at different points before Sentinel
is fully developed. Sentinel PMO officials said that delivering training via a
virtual classroom will allow the FBI to address its most significant training
challenges, providing timely training to many FBI personnel as that
functionality is added to Sentinel. FBI officials told us that when the FBI
tested this approach with a user group made up of FBI personnel from
across the country, it was well received.

     In addition, the Sentinel PMO has enhanced Sentinel’s online help
capabilities and created additional Sentinel job aids to supplement the online


                                     - 31 -
training. In addition, Lockheed Martin plans to develop “fly overs” that will
flash information on the screen that explains how to perform tasks in
Sentinel when a user moves the mouse over different links or options
displayed on the screen. Lockheed Martin and the Sentinel PMO also plan to
conduct workshops for Sentinel Coordinators and Training Advisors in each
of the FBI’s 56 field offices. The Sentinel PMO believes this additional
training should enhance the coordinators’ and training advisors’ ability to
provide on-site support to Sentinel users.

Operations and Maintenance Activities

       After the FBI accepted delivery of Phase 1 from Lockheed Martin,
Sentinel entered the Operations and Maintenance (O&M) phase of the
project’s IT life cycle. 38 So far, the activities performed during Sentinel’s
Phase 2 O&M phase have addressed low priority system deficiencies, user
requests for improvements, and system maintenance. While the Sentinel
PMO provides oversight, Lockheed Martin is responsible for most of the
technical work in the O&M phase, including system maintenance, resolution
of issues identified by Sentinel users, and the ongoing detection of system
abnormalities.

Phase 2 Updates

      To address technical issues and user concerns identified during
Phase 2, the FBI has periodically deployed updated versions of Sentinel,
called releases. 39 From April 2008 through January 2009, the FBI deployed
23 releases.

      The Sentinel Joint Engineering Board – a governance board comprised
of both FBI and Lockheed Martin personnel – manages changes to Sentinel
and decides which defect reports, technical problems, and functionality
updates each release will address. To aid in the decision making process,
the Joint Engineering Board assigns one of four priority rankings to Defect
Reports, with Priority 1 being the most important.

      Six of the 77 Defect Reports (8 percent) in the 23 Releases we
reviewed received a Priority 1 or Priority 2 rating. Priority 1 Defect Reports
require immediate attention, while Priority 2 Defect Reports require an

       38
           The purpose of the O&M phase is (1) to maintain and support the products,
including recertification every three years for proper electronic recordkeeping and (2) to
manage and implement necessary modifications.
       39
            In our previous report, we referred to Releases as Builds. Functionally, they are
the same.


                                             - 32 -
immediate workaround and a solution soon thereafter. Of the remaining
71 Defect Reports, 36 were Priority 3 and 35 were Priority 4.

       The Sentinel PMO tracked the functional area of each Defect Report
addressed in Phase 2 O&M releases. The Software Development and User
Interface functional areas represented 68 percent of the Defect Reports
addressed in the releases we reviewed. In our judgment, this percentage of
Software Development Defect Reports is normal for a project of Sentinel’s
size involving the integration of COTS products. We believe the generation
of the User Interface Defect Reports was a result of the difficulty Lockheed
Martin encountered, based on feedback it received from FBI employee user
groups, in building user-friendly forms and the Sentinel interface.

Phase 2 System Performance Metrics

      The FBI established performance measures in the Sentinel
Measurement Plan (Measurement Plan) to ensure that Sentinel meets the
contractual requirements of the program and that deliverables meet
functional requirements. The Measurement Plan defined the performance
data to be collected, including seven Critical Performance Measures (CPM)
and five O&M data elements. 40 The seven CPM data elements required by
the Measurement Plan address the technical aspects of Sentinel’s
performance, such as the percentage of time the system is available to FBI
users.

       The Measurement Plan also requires Lockheed Martin to evaluate how
it is meeting the established metrics and submit a monthly Measurement
and Defect Report. Lockheed Martin distributes this report to the Sentinel
PMO and other FBI offices overseeing Sentinel’s performance. From March
2008 through February 2009 Lockheed Martin submitted only 10 of the
required 12 Measurement and Defect Reports. A Sentinel PMO official stated
that Lockheed Martin did not submit Measurement and Defect Reports for
October 2008 and November 2008 because the FBI and Lockheed Martin
were negotiating revisions to the Measurement Plan at that time. In
addition, we noted that the December 2008 and January 2009 reports
included data outside the relevant reporting period. For example, the
January 2009 report was based on data from August 2008. In our
judgment, the Measurement and Defect Reports are only useful if they are
based on relevant and timely data. Otherwise, the reports may present an
inaccurate view of Sentinel’s recent performance.

      40
          CPM data elements are used to track system performance during development to
gauge whether the specific program elements will be met once the system has been
deployed. O&M data elements track system performance after the system has been
deployed.


                                        - 33 -
      Based on the CPM and O&M metrics included in the 10 Measurement
and Defect Reports Lockheed Martin submitted, Sentinel met its critical
performance threshold for system response time, as the requirements for
Sentinel only require Lockheed Martin to meet a requirement for the time it
takes for the system to receive and answer a request. However, this
requirement is only one of the factors that affect the speed in which a user
receives requested data from Sentinel. The other two factors include:
(1) the time it takes the network to send and receive data, and (2) the
amount of data that needs to be transferred. Because the requirement only
relates to Sentinel’s response time, the Sentinel Measurement and Defect
reports only measure that factor. Consequently, the reports do not include
the time it takes the network to send or receive data or measure the amount
of data being transferred, and therefore do not accurately reflect users’
experiences.

      A Sentinel PMO official stated that the Sentinel PMO’s plan for web-
based forms will use much smaller files than the forms software used during
Phase 2, Segments 1 through 3. In turn, the smaller files will significantly
reduce the amount of data transferred across the network. While the project
to improve the FBI’s network is a separate and distinct project from
Sentinel, we believe there is a direct relationship between network response
times and a user’s perception of Sentinel.

Conclusion

      Users have repeatedly expressed concern that Sentinel does not
respond quickly enough to data requests, and these concerns are directly
related to the capabilities of the FBI’s information technology network, which
most users do not differentiate from Sentinel. For users to fully utilize
Sentinel and its new automated workflows, we believe it is critical that the
FBI implement its Next Generation Network by December 31, 2009, as
scheduled. We also believe that the FBI should establish a goal for
Sentinel’s overall response time and include the network response time in
order to eliminate the current negative user perceptions created by the FBI’s
current network.

      While the FBI is taking steps to enhance Sentinel training for users,
providing training to FBI personnel as functionality is added to Sentinel
presents a significant and ongoing challenge. We will continue to review
user training as the Sentinel moves toward its full operational capability.

     The Sentinel PMO tracked the functional area of each Defect Report
addressed by the updates to Phase 2. Over half of these Defect Reports


                                    - 34 -
addressed issues with the Software Development and User Interface. In our
judgment, this reflects the difficulty Lockheed Martin encountered in building
user-friendly forms as well as an intuitive Sentinel interface. As discussed in
the previous finding, the FBI has developed a new approach to developing
forms that meet users’ needs, and we will continue to monitor this issue in
future reports.

      We also reviewed monthly Sentinel Measurement and Defect Reports
to determine whether Sentinel’s performance has met technical
expectations. We are concerned that Lockheed Martin did not always submit
the required monthly reports or use relevant data in these reports. The FBI
needs accurate data to adequately monitor Sentinel performance and assess
Sentinel’s progress toward meeting the FBI’s requirements for the completed
version of Sentinel.

Recommendations

      We recommend that the FBI:

      5. Ensure that Lockheed Martin measures and reports Sentinel system
         performance in accordance with the timeframes identified in the
         Sentinel Measurement Plan.

      6. Develop a goal for Sentinel response time that includes the network
         on which Sentinel data travels.




                                    - 35 -
      FINDING 4: ACTIONS TAKEN ON PREVIOUS OIG
                 RECOMMENDATIONS

      The FBI has generally taken steps to address our concerns
      regarding the management of Sentinel and to address the
      recommendations we made in previous Sentinel reports. Based
      on the FBI’s actions, we have closed 30 of the 31
      recommendations. The FBI agreed with the remaining
      recommendation but has not yet fully implemented steps to
      remedy it.

     In our previous four Sentinel reports, we made a total of 31
recommendations, and the actions taken by the FBI in response to our
recommendations have allowed us to close all but one.

       For example, we recommended that the FBI develop an architecture
representing Sentinel’s design when it was completely operational (such an
architecture is often referred to as a target architecture because the design
of intermediate components are aimed at meeting full operating capability
architecture). The FBI completed the Sentinel full operating capability
architecture and the Department’s Chief Information Officer approved it.

       We also recommended that the FBI decide what data will be stored in
Sentinel, how that data will be collected, and what forms Sentinel will
replace. The FBI revised the appropriate Sentinel planning documents to
identify the forms that Sentinel will develop, the data that will be collected
by those forms, and the data that will be stored in Sentinel, including the
data that will be migrated from legacy systems.

      With regard to one of our recommendations in our December 2008
report, we stated that the FBI should decide whether Sentinel will serve as
the FBI’s enterprise-wide records management system. In response, the
FBI decided that Sentinel would not be the enterprise-wide records
management system. However, the FBI is considering using the COTS
records management software selected by the Sentinel project as its
enterprise-wide records management software. We do not disagree with
that decision, because implementing a new records management system
would be a large and challenging project, and using Sentinel as the FBI’s
enterprise-wide records management application would have delayed
Sentinel’s completion and added to its cost.

      Appendix IV contains a list of all the closed recommendations from our
previous four Sentinel reports.



                                    - 36 -
     The one recommendation that remains open is from our December
2008 audit report:

     Update the Plans of Actions and Milestones (POA&M) template and all
     open POA&M findings on the HS3 and SP1 POA&Ms to include all of the
     reporting elements required by the Office of Management and Budget
     (OMB).

       A POA&M is a management tool for correcting security weaknesses
identified in an IT system. A POA&M details the resources required to
accomplish the elements of the plan, any milestones in meeting the task,
and scheduled completion dates for the milestones. To ensure that POA&Ms
contain the data necessary to assist agencies in identifying, assessing,
prioritizing, and monitoring the progress of corrective actions, OMB issued
guidance listing eight elements a POA&M should include for OMB-required
reports.

       We recommended that the FBI update its POA&M template and the
Sentinel POA&Ms to include all information required by OMB. Since
December 2008, the FBI has provided two updated POA&Ms for Sentinel.
However, in our review of the Sentinel Phase 2 POA&M document dated April
2009, we found that the FBI did not include the two missing OMB reporting
elements we identified during our audit: (1) Key Milestones with Completion
Dates and (2) Source of the Weakness. In addition, we were unable to
determine from the printout provided by the FBI whether the HS3 POA&M
contains the four OMB reporting elements identified in our recommendation
as missing. Therefore, we will close the recommendation when the FBI
clearly demonstrates that the Sentinel POA&Ms include all of the reporting
elements required by OMB.

Conclusion

      Based on actions taken by the FBI, we have closed 30 of the 31
recommendations we made during our first four audits of Sentinel. While
the FBI has agreed with the remaining recommendation, it has not taken the
actions necessary to close it. This recommendation can be closed when we
receive documentation clearly demonstrating that the Sentinel POA&Ms
include all of the reporting elements required by OMB.




                                   - 37 -
                  STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the FBI’s contract for the
Sentinel project, we considered the FBI’s internal controls for the purpose of
determining our audit procedures. This evaluation was not made for the
purpose of providing assurance on the internal control structure as a whole.
However, we noted certain matters that we consider to be reportable
conditions under the Government Auditing Standards.

      Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could adversely affect the FBI’s ability to
manage the Sentinel project. As discussed in the Findings and
Recommendations section of this report, we found the following internal
control deficiencies.

      •   The Migration Plan has not been developed.

      •   The Sentinel system performance needs to be in accordance with
          the timeframe identified in the Sentinel Measurement Plan.

      •   The Sentinel PMO staffing plan needs to be updated.

      Because we are not expressing an opinion on the FBI’s internal control
structure as a whole, this statement is intended solely for the information
and use of the FBI in contracting for the Sentinel project. This restriction is
not intended to limit the distribution of this report, which is a matter of
public record.




                                    - 38 -
   STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      This audit assessed the FBI’s implementation of the contract for its
Sentinel case management project. In connection with the audit, as
required by the Government Auditing Standards, we reviewed management
processes and records to obtain reasonable assurance that the FBI’s
compliance with laws and regulations that, if not complied with, in our
judgment, could have a material effect on FBI operations. Compliance with
laws and regulations applicable to the FBI’s management of the Sentinel
project is the responsibility of the FBI’s management.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws and regulations against which we conducted
our tests are contained in the relevant portions of:

     •   Attorney General Guidelines for Domestic FBI Operations,
         September 29, 2008;
     •   OMB Circular A-11, Memorandum M-02-01, and Memorandum M-
         05-23;
     •   Executive Order 13388: Further Strengthening the Sharing of
         Terrorism Information to Protect Americans, dated October 25,
         2005;
     •   Department of Justice Order 2880.1b;
     •   American National Standards Institute/Electronic Industries Alliance
         Standard 748A: Earned Value Management Systems; and
     •   National Defense Industrial Association Earned Value Management
         System Intent Guide.

      Our audit did not identify any areas where the FBI was not in
compliance with the laws and regulations referred to above. With respect to
transactions that were not tested, nothing came to our attention that caused
us to believe that FBI management was not in compliance with the laws and
regulations cited above.




                                   - 39 -
                                                                 APPENDIX I



               OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

     The objectives of this audit were to: (1) evaluate the FBI’s
implementation of Phase 2 of the Sentinel project, including project’s cost,
schedule, and performance; and (2) assess the FBI’s progress in resolving
concerns identified in the OIG’s previous Sentinel audits.

Scope and Methodology

      The audit was performed in accordance with the Government Auditing
Standards, and included tests and procedures necessary to accomplish the
audit objectives. We conducted work at the Department of Justice’s and
FBI’s headquarters in Washington, D.C., and at the FBI Sentinel Program
Management Office (PMO) in McLean, Virginia.

      To perform our audit, we interviewed officials from the FBI and the
Department of Justice. We also interviewed officials from contractors
supporting the Sentinel PMO. We reviewed documents related to the
Sentinel contract; cost and budget documentation; Sentinel plans,
processes, and guidelines; prior OIG Sentinel reports; and other reports
from the OIG and other organizations on the FBI’s information technology.
We obtained from the FBI and used in our report computer-processed data
related to the requirements distribution by phase and the number of unique
Sentinel and ACS users. We used the data for informational purposes.
Therefore, we did not verify its accuracy.

       To evaluate the FBI’s implementation of the Sentinel contract, we
examined the contract as well as associated amendments, modifications,
and other supporting documentation. We also examined actual costs and
progress toward completion of Phase 2. Additionally, we interviewed FBI
officials responsible for contract implementation.

       To update issues identified in the OIG’s December 2008 Sentinel audit
report, we interviewed responsible FBI and contractor officials and reviewed
plans and procedures for cost tracking, risk management, contingency
planning, independent verification and validation, Sentinel PMO staffing. We
also reviewed Phase 2 schedule, cost, performance, and management. We
also interviewed FBI officials and obtained the updated status on issues
relating to EVM.

                                    - 40 -
                                                     APPENDIX II


                    ACRONYMS

ACS     Automated Case Support
BMT     Business Management Team
BPR     Business Process Reengineering
BPMS    Bureau Personnel Management System
COTS    Commercial Off-The-Shelf
CPM     Critical Performance Measures
EC      Electronic Communication
EDS     Enterprise Directory Services
EVM     Earned Value Management
FBI     Federal Bureau of Investigation
FD      Field Document
FOC     Full Operating Capability
GAO     U.S. Government Accountability Office
IAM     Identity Access Management
IT      Information Technology
ITIM    Information Technology Investment
        Management
ITOD    Information Technology Operations Division
IV&V    Independent Verification and Validation
LCMD    Life Cycle Management Directive
O&M     Operations and Maintenance
OCM     Organizational Change Management
OIG     Office of the Inspector General
OMB     Office of Management and Budget
PIT     Program Integration Team
PKI     Public Key Infrastructure
PMO     Program Management Office
POA&M   Plans of Action and Milestones
RIA     Report of Investigative Activity
RMD     Records Management Division
SACS    Security Access Control System
SDU     Systems Development Unit
SEP     Sentinel Enterprise Portal




                        - 41 -
                              APPENDIX III


SENTINEL ELECTRONIC FORM DETAIL




             - 42 -
- 43 -
- 44 -
                                                               APPENDIX IV


      CLOSED RECOMMENDATIONS FROM PRIOR OIG REPORTS

From The FBI’s Pre-Acquisition Planning for and Controls over the Sentinel
Case Management System (Sentinel I) Report dated March 2006:

  1. Ensure that the system security and Independent Verification and
     Validation plans are completed as soon as possible after the contract is
     signed.

  2. Ensure that the Sentinel Program Management Office is staffed to a
     level that will support Sentinel’s aggressive delivery schedule.

  3. Obtain a tool that will allow for the effective implementation of an
     Earned Valued Management process and fully implement this process.

  4. Discuss with other intelligence community and law enforcement
     agencies their information sharing requirement to ensure compatibility
     with those systems in the requirements and design of Sentinel.

  5. Ensure that an effective system is in place to accurately track and
     control Sentinel’s development costs.

  6. Complete a comprehensive Sentinel training plan with realistic
     schedule and cost estimates and include these training cost estimates
     in the estimates of overall project costs.

  7. Establish a method to monitor the operational impact of a potential
     second reprogramming and identify for resolution any degrading of the
     FBI’s mission-critical functions due to the diversion of funds to the
     Sentinel project.

From the Sentinel Audit II: Status of the FBI’s Case Management System
(Sentinel II) Report dated December 2006:

  1. Ensure the management reserve is based on an assessment of project
     risks for each phase and for the project overall.

  2. Periodically update the estimate of total project costs as actual cost
     data is available.

  3. Complete contingency plans as required by the Sentinel Risk
     Management Plan.



                                   - 45 -
  4. Ensure that the independent verification and validation process is
     conducted through project completion.

  5. Complete hiring as soon as possible for the vacant PMO positions
     needed during the current project phase.

From the Sentinel Audit III: Status of the FBI’s Case Management System
(Sentinel III) Report dated August 2007:

  1. Reconsider the four-phase approach to developing Sentinel to limit the
     scope of future phases to allow them to be completed in 9 months or
     less.

  2. Negotiate decreases in the cost of future phases if requirements are
     deferred in that phase.

  3. Collect and report EVM data for both the performance measurement
     baseline approved at the integrated baseline review as well as the
     revised performance measurement baseline.

  4. Reconcile the discrepancy between the costs Lockheed Martin reported
     for Phase 1 with Lockheed Martin’s EVM data, and develop and
     implement policies and procedures to prevent any future
     discrepancies.

  5. Develop and implement effectiveness measures for all risk mitigation
     plans.

  6. Ensure that personnel assigned to manage Sentinel risks devote
     sufficient time to the risk and have the experience and authority to
     adequately manage the risk.

  7. Document and track project issues, risks that have occurred, as well
     as plan to resolve those issues and their ultimate resolution.

  8. Implement policies and procedures to ensure that any changes to the
     Bill of Materials receive proper authorization and that the changes can
     be reconciled to the Bill of Materials submitted in Lockheed Martin’s
     proposal.

  9. Implement policies and procedures to ensure that materials contained
     in Lockheed Martin invoices can be reconciled to the bill of materials or
     an FBI approval for a change to the bill of materials.



                                   - 46 -
From the Sentinel Audit IV: Status of the FBI’s Case Management System
(Sentinel IV) Report dated December 2008:

  1. Decide what data will be stored in Sentinel, how that data will be
     collected, and what FD forms Sentinel will replace and adjust the
     Systems Requirement Specification if necessary.

  2. Decide which statistics will be stored in Sentinel and how those
     statistics will be entered into Sentinel, and adjust the Systems
     Requirement Specification if necessary.

  3. Decide whether Sentinel will serve as the FBI’s enterprise-wide records
     management system, and adjust the System Requirement
     Specification if necessary.

  4. Complete the Sentinel FOC architecture.

  5. Update the EVM System Description.

  6. Provide better descriptions and justifications for EVM baseline changes.

  7. Revise Attachment 1 of the current Sentinel Statement of Work to
     clarify the requirements with respect to Attachment 1 of the July 2005
     version of the Sentinel Statement of Work.

  8. Amend the Measurement Plan to reflect the addition of Phase 1
     System Specification critical performance metrics (CPM) thresholds,
     and update the Measurement Plan as the CPM thresholds change in
     subsequent versions of the System Specification.

  9. Revise the Sentinel Risk Management Plan to use the risk criteria
     contained in Version 1 of the Risk Management Plan.




                                   - 47 -
                                                             APPENDIX V

 SENTINEL PROGRAM MANAGEMENT OFFICE STAFF POSITIONS AND
                    RESPONSIBILITIES

Program Leadership

Program Manager

      The individual accountable for program outcome is the Program
Manager. The Program Manager is responsible for cost, schedule, and
performance including system capabilities deployed to the users;
Organizational Change Management (OCM) leading to users accepting and
employing Sentinel capabilities and budget preparation, defense, and
execution. The Program Manager is also responsible for the Program
Management Office’s (PMO) organization, staffing, and operations;
governance processes for program execution; communications between
Sentinel and its stakeholders; systems requirements configuration
management; prime contractor direction to ensure delivered capabilities
meet requirements; and Chairs Task Order(s) Award Fee Board.

Deputy Program Manager

      Two Deputy Program Managers support the Program Manager in
carrying out his responsibilities. One Deputy Program Manager manages the
system development and technology and the other Deputy Program Manager
manages organizational change, program support to include budget and
finances, training, communications, user representation and liaison.

Direct Reporting Staff

     There are several staff members that report directly to the Program
Manager.

Contract Officer

      Oversees all Sentinel contract executions, including contractor task-
order compliance, maintains alignment between task orders and Sentinel
program needs, prepares change orders or other contract modifications as
required, and also monitors contractual performance.




                                    - 48 -
Contract Officer’s Technical Representative

     Assists the Contracting Officer with technical oversight.

General Counsel

     Provides legal advice to the Program Manager and the Deputy Program
Managers.

Quality Manager

      Provides guidance, oversight and coordination related to quality
control issues within the PMO and with the development contractor.

Program Advisor

      Provides overall execution advice to the Program Manager and Deputy
Program Managers.

Operations and Maintenance Unit

      The Operations and Maintenance Unit (OMU) is responsible for
Sentinel’s Operations and Maintenance (O&M) Concept of Operations as well
as oversight of Sentinel’s deployed capabilities operations and maintenance.
The OMU retains these responsibilities until Sentinel achieves Full Operating
Capacity and total O&M responsibilities are transferred to Information
Technology Operations Division (ITOD). The OMU establishes and maintains
close collaboration with ITOD throughout Sentinel capability development.
The OMU also plans for and coordinates deployment of Sentinel to all of the
FBI receiving locations and units.

       In exercising its O&M responsibilities, OMU coordinates with ITOD and
relies upon the System Development Unit and Transition Management Unit
for sustaining engineering matrix support in the following areas: systems
and subsystems engineering, integration and testing, configuration
management, certification and accreditation, patch release management,
and training activities. OMU’s operations and maintenance responsibilities
are organized around ITOD’s four tier structure with OMU responsible for
Tiers 2-4 and ITOD responsible for Tier 1.

      OMU skill requirements fall into two general skills area: support and
sustainment of deployed capabilities; and, sustaining engineering to analyze
and resolve deployed capabilities deficiencies. Specific OMU skill
requirements are:


                                   - 49 -
   •   Supportability life cycle systems engineering
   •   O&M requirements, analysis, and plans
   •   O&M coordination and execution
   •   Technical data requirements

Organization Change Management

       Organizational Change Management (OCM) is responsible for preparing
the user community for the cultural challenges associated with users’
acceptance and employment of the capabilities of the Sentinel system. OCM
is also responsible for being the intermediary between the Sentinel PMO and
the user community, keeping the user community informed of Sentinel’s
progress toward meeting user requirements and the Sentinel PMO informed
of user requests for Sentinel. OCM is the formal path for receiving new user
originated requirements. The OCM team includes special agents, intelligence
analysts, and professional staff who are on temporary assignment to the
Sentinel PMO.

       The OCM works closely with the System Development Manager and the
prime contractor to ensure that business processes and Sentinel system
solutions are properly aligned as the individual development phase’s
progress. OCM also works closely with the Deputy Chief Information Officer’s
Business Process Reengineering (BPR) staff to ensure two way exchanges on
any impacts that BPR and Sentinel process changes may have on each
other. OCM will be a significant Sentinel PMO player as Sentinel helps the
FBI address its transformation objectives by:

       •   Representing the user community to the Sentinel Program and the
           Program to the user community,

       •   Ensuring that each phase, as developed, provides useful capabilities
           to the user community,

       •   Overseeing Sentinel PMO and prime contractor change
           management activities,
       •   Ensuring business processes and SENTINEL system solutions are
           aligned as the development phases progress, and

       •   Working closely with the Deputy Chief Information Officer’s BPR
           staff.

OCM staff require the following specialized skills:



                                     - 50 -
     •   A strong understanding of investigative and intelligence business
         process activities for the Bureau’s Special Agent, Intelligence
         Analyst, and Professional Staff communities;

     •   Strong interpersonal skills;

     •   BPR insight/expertise;

     •   OCM expertise; and

     •   Requirements analysis expertise.

Training and Communications Unit

       The Training and Communications (T&C) Unit is the Program
Manager’s representative for communicating program information. The T&C
Unit is also responsible for the design and development of the program’s
communication strategies; makes sure all stakeholders are aware of, and
accurately informed about the program’s plans and accomplishments; is the
primary contact point for external entities seeking information about the
Sentinel program; acts as a liaison to the FBI’s Inspection Division for
Department of Justice Office of the Inspector General and Government
Accountability Office reviews; coordinates and plans training; and ensures
that all required system, O&M, and business process training is developed,
tested, and executed in support of Sentinel’s phase deployments.

User Representation and Policy Unit

        The User Representation and Policy Unit (URPU) is responsible for the
strategy employed for changing the FBI organization, to include how it
carries out its overall mission, while enabling users to learn new behaviors,
skills, and business processes. The URPU assists in providing robust training
and outreach programs while the Sentinel Program evolves and deploys its
functional capability. The URPU ensures that the FBI’s overall strategy and
user acceptance through continual process diagramming, requirements
clarification, testing, communications, program advocacy, marketing, as well
as the development and deployment of training.

Program Support Unit

     The Program Support Unit is made up of the Program Integration
Team (PIT) and the Business Management Team (BMT).




                                    - 51 -
Program Integration Team

       The PIT is responsible for developing and maintaining the Sentinel
program baseline, tracking progress and risks against that baseline, and
incorporating changes to the baseline as directed by the Program Manager.
The PIT operates collaboratively with the other Line Units in defining,
collecting, monitoring, and maintaining the Sentinel program baseline
including documentation that defines that baseline. PIT has a key role in
preparing material for use in oversight reviews, external documentation, and
joint program activities.

Business Management Team

      The BMT develops and maintains the program’s investment, budget
and spend plans. The BMT monitors, analyzes and reports on the program’s
Earned Value Management status. It also provides the Contracting Officer’s
Technical Representative who assists the CO in technical oversight of all
Sentinel contract execution, and manages the administrative support
elements.

Systems Branch

     The Systems Branch is comprised of the Systems Development Unit
(SDU), On-Site Staff, Systems Analysis Team, and Systems
Engineering/Test Team.

Systems Development Unit

      The SDU is responsible for the Sentinel system development in terms
of both the overall system design and its implementation increments. It
owns the technical performance outcome of the Sentinel program and is
accountable for the systems requirements and delivering a system solution
whose technical performance meets the user community’s expectations. The
Systems Development Unit Manager oversees the Sentinel capability
development effort through several functional staffs.

  •   On-Site Staff — The On-Site Staff is responsible for direct and daily
      interactions with the prime contractor as a facilitator for effective,
      responsive development of Sentinel’s capability by the Prime. On-Site
      Staff represents the Program Manager’s primary independent source of
      information on Lockheed Martin’s progress toward meeting the
      Sentinel development task orders, increments, and requirements.




                                   - 52 -
•   Systems Analysis Team — The Systems Analysis Team is responsible
    for Sentinel’s requirements, design, and performance from a total
    system perspective and Sentinel’s interoperability within the FBI
    Enterprise and with other federal agencies’ systems.

•   Systems Engineering/Test Team — The Systems Engineering/Test
    Team is responsible for development of Sentinel’s individual
    increments/phases. It also serves as the core of the On-Site Team.




                                - 53 -
                                                                                      APPENDIX VI

             FEDERAL BUREAU OF INVESTIGATION’S
               RESPONSE TO THE DRAFT REPORT
                                                         U.S. Department of Justice


                                                         Federal Bureau of Investigation



                                                         Washington, D. C. 20535-0001

                                                        October 29, 2009



 The Honorable Glenn A. Fine
 Inspector General
 Office of the Inspector General
 U.S Department of Justice
 Room 4322
 950 Pennsylvania Avenue, N.W.
 Washington, D.C. 20530


 Dear Mr. Fine:

                The Federal Bureau of Investigation (FBI) appreciates the opportunity to review
 and respond to your audit entitled, "Sentinel Audit V: Status of the FBI's Case Management
 System" (hereinafter "Report").

                  We are pleased that the Report concludes the revised SENTINEL schedule is
 more realistic and that extending the completion of Phase 2 by three months increases the
 likelihood that SENTINEL will meet users' needs when completed. The increase in cost and
 schedule of Phase 2 will be absorbed within the program's overall cost and schedule. This
 investment will ensure the delivery of quality services to SENTINEL users.

                  Additionally, the FBI is pleased that this Report reflects, as noted in other OIG and
Government Accountability Office (GAO) reports, the SENTINEL Program has steadily improved and
refined its business practices. In particular, in September 2008, the GAO applauded SENTINEL for
implementing five key methods for acquiring commercial information technology solutions and
suggested the Department of Justice adopt these methods as standard practices. We are heartened
to think the FBI's SENTINEL IT Project would serve as the model to the Department for all IT Projects.

                With respect to the current Report, we remain optimistic readers of the Report will not
mistakenly believe the SENTINEL Program is nine months behind schedule and $18 million over
cost. As previously explained in your SENTINEL Audit IV Report, the increase in the estimated cost of
SENTINEL was based upon a legal, contractual rebaselining of the SENTINEL schedule and
associated cost. This cost increase was attributed to the re-engineering efforts that occurred after the
completion of Phase 1, and acceptance of the new strategic plan in November 2007. In your prior
report, you complemented these changes to the development of SENTINEL as a "prudent" approach
and acknowledged the resulting cost increase was justified.




                                               - 54 -
                 We also remain optimistic that members of Congress, Office of Management and
 Budget, Office of the Director of National Intelligence, the Department of Justice Chief Information
 Officer, and GAO will recall the unanimous agreement in 2007 on the need to adopt an incremental
 delivery methodology for the future phases of SENTINEL based upon lessons learned in Phase 1.
 The approved rebaselining of SENTINEL was critical to the future successes of SENTINEL.



                In conclusion, based upon a review of the Report, the FBI concurs with all six
recommendations directed to the FBI and has already implemented measures to resolve all of the
identified measures. The FBI appreciates the professionalism exhibited by your staff in working jointly
with our representatives to complete this Report. Enclosed herein are the FBI's responses to the
recommendations. Please feel free to contact me at 202-324-6080 should you have any questions or
need further information.

                                                  Sincerely yours,



                                                  Dean E. Hall
                                                  Associate Executive Assistant Director and
                                                  Deputy Chief Information Officer Information
                                                  and Technology Branch
Enclosure




                                                 - 55 -
               FBI RESPONSE TO THE OIG’S RECOMMENDATIONS
         RE: SENTINEL AUDIT V: STATUS OF THE FEDERAL BUREAU OF
                INVESTIGATION’S CASE MANAGEMENT SYSTEM


Recommendation 1: “Update the Sentinel Staffing Plan to ensure that all of the needs of the
Sentinel PMO are covered by positions within the plan.”

FBI Response to Recommendation #1: Concur: The SENTINEL Program Management
Office (PMO) is currently working on updating the staffing plan and anticipates this update to be
completed by November 2009. This new plan will identify all staffing needs through the end of
the program.

Recommendation 2: “Expeditiously fill the vacant positions within the updated Sentinel PMO
Staffing Plan to ensure that the staffing needs of the project are being met.”

FBI Response to Recommendation #2: Concur: All key staffing positions have been filled
and the program has maintained high staffing levels. Once the SENTINEL PMO has completed
the update of the staffing plan, any newly created vacancies will be filled as soon as possible.

Recommendation 3: “Incorporate more user involvement throughout the remainder of Sentinel
development.”

FBI Response to Recommendation #3: Concur: The SENTINEL Program continues to
increase the number of users permanently and temporarily assigned to the program. There are
currently 16 users assigned to the program and the PMO is actively recruiting additional
personnel on temporary duty status. These users will be working closely with the developers
throughout the remainder of the program. The program will continue to be responsive to user
feedback through ongoing outreach activities with our stakeholder network.

Recommendation 4: “Develop a detailed Data Migration Plan for the migration of data from
FBI case files.”

FBI Response to Recommendation #4: Concur: The SENTINEL PMO and Lockheed Martin
have a Data Migration Plan in place that forms the basis for data migration. The level of work
required is detailed in each segment. This plan is updated during the segment planning process
and includes projected activities and incorporates lessons learned from the previous segment.

Recommendation 5: “Ensure that Lockheed Martin measures and reports Sentinel system
performance in accordance with the timeframes identified in the Sentinel Measurement Plan.”

FBI Response to Recommendation #5: Concur: Lockheed Martin (LM) reports System
Performance Measurements in accordance with the Measurement Plan V5.0, dated July 28, 2009.
However, some further modification to the plan is necessary since not all performance
measurements provide value because of the short time between reporting periods. The FBI will
ensure that Lockheed Martin measures and reports SENTINEL system performance in
accordance with the timeframes identified in the modified SENTINEL Measurement Plan.

Recommendation 6: “Develop a goal for SENTINEL response time that includes the network
on which SENTINEL data travels.”

                                             - 56 -
FBI Response to Recommendation #6: Concur: SENTINEL currently meets the response
times as specified within System Requirement Specification using the legacy network. However,
the ITB is refreshing and upgrading the current FBINet to better service all customers.




                                           - 57 -
                                                               APPENDIX VII

       OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
     SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the FBI for its review
and comment. The FBI’s response is incorporated as Appendix VI of this
report. The following provides the OIG’s analysis of the response and
summary of the actions necessary to close the report.

Analysis of FBI Response

       In response to our audit report, the FBI concurred with our
recommendations and discussed the actions it will implement in response to
our findings. However, the FBI also provided additional comments in its
response that did not pertain to our recommendations.

      In its response to our draft report, the FBI stated that it “remain[s]
optimistic readers of the Report will not mistakenly believe the Sentinel
Program is nine months behind schedule and $18 million over cost.” The
response stated that the increase in the overall estimated cost of Sentinel
was approved in a November 2007 rebaselining of Sentinel’s schedule and
cost. We agree that the rebaselining increased the overall budget for
Sentinel to $451 million and extended the development of Phase 2 from May
2008 to July 2009, and Phase 4 from December 2009 to June 2010.
However, we note that the FBI does not dispute that the full development of
Sentinel is now planned to be completed in September 2010, 9 months later
than the December 2009 date planned at the outset of the project. The FBI
also does not dispute that since the approved rebaselining, the development
costs for Phase 2 have increased by $18 million. Our report clearly states
that while the estimated cost and schedule to develop Phase 2 as well as the
schedule for the entire project have increased, the FBI has not revised the
overall cost of the Sentinel program and has addressed the Phase 2 cost
increase using funds from the project’s management risk reserve and other
budget reallocations. In our opinion, the cost and schedule growth of Phase
2 heightens the risk and probability for increases to the overall cost of the
Sentinel Program and its schedule for completion.

Recommendations

     The following provides our summary of actions necessary to close the
recommendations.

1. Resolved. The FBI concurred with our recommendation to update the
   Sentinel Staffing Plan to ensure that all of the needs of the Sentinel
   Program Management (PMO) are covered by positions within the plan. In
   its response, the FBI stated that the Sentinel PMO is updating the
   Sentinel Staffing Plan to identify all staffing needs through the end of the
                                      - 58 -
  program. This recommendation can be closed when the FBI provides an
  updated Sentinel Staffing Plan, which ensures that the needs of the
  Sentinel PMO are covered by positions within the plan.

2. Resolved. The FBI concurred with our recommendation to expeditiously
   fill the vacant positions within the updated Sentinel PMO Staffing Plan to
   ensure that the staffing needs of the project are met. The FBI stated that
   all key staffing positions have been filled and that the program has
   maintained high staffing levels. This recommendation can be closed
   when the FBI provides documentation that the vacant positions within the
   updated Sentinel PMO Staffing Plan have been filled.

3. Resolved. The FBI concurred with our recommendation to incorporate
   more user involvement throughout the remainder of Sentinel
   development. The FBI said that the Sentinel program continues to
   increase the number of users permanently and temporarily assigned to
   the program and is actively recruiting additional personnel on temporary
   duty status. Additionally, the FBI said that the Sentinel program plans to
   continue to be responsive to user feedback through ongoing outreach
   activities with its stakeholder network. This recommendation can be
   closed when the FBI provides documentation demonstrating that the
   Sentinel PMO has incorporated more user involvement in the remainder of
   Sentinel’s development.

4. Resolved. The FBI concurred with our recommendation to develop a
   detailed Data Migration Plan for the migration of data from FBI case files
   into Sentinel. The FBI’s response stated that Lockheed Martin and the
   Sentinel PMO have a Data Migration Plan in place that forms the basis for
   data migration and that the level of work required is detailed in each
   segment. This recommendation can be closed when the FBI provides the
   detailed Data Migration Plan that demonstrates that the FBI’s
   methodology for migrating data from FBI case files is sound.

5. Resolved. The FBI concurred with our recommendation to ensure that
   Lockheed Martin measures and reports Sentinel system performance in
   accordance with the timeframes identified in the Sentinel Measurement
   Plan. In its response, the FBI stated that it will ensure that Lockheed
   Martin measures and reports Sentinel system performance in accordance
   with the timeframes in the Sentinel Measurement Plan. The response
   also stated that the Measurement Plan requires modification since not all
   of the performance measures provide value because of the short time
   between reporting periods. This recommendation can be closed when the
   FBI provides documentation demonstrating that Lockheed Martin
   measures and reports Sentinel system performance in accordance with
   the timeframes identified in the Sentinel Measurement Plan.

6. Resolved. The FBI concurred with our recommendation to develop a
   goal for Sentinel response time that includes the network on which
                                    - 59 -
Sentinel data travels. The FBI’s response to our recommendation stated
that Sentinel currently meets the response times as specified within the
System Requirement Specification using the legacy network and that the
Information Technology Branch (ITB) is refreshing and upgrading the
current FBINet to better service all customers. This recommendation can
be closed when the FBI provides documentation demonstrating that the
FBI has set a goal for Sentinel response times that include the network on
which Sentinel data travels.




                                - 60 -
